No. 19In the

Supreme Court of the United States
COURTNEY BIRD,
Petitioner,
v.
STATE OF HAWAI‘I; DEPARTMENT OF HUMAN
SERVICES DIVISION, CHILD WELFARE SERVICES
BRANCH; PANKAJ BHANOT, DEPARTMENT OF
HUMAN SERVICES DIRECTOR AND
JEFFREY R. WOODLAND,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Kenneth S. Robbins
Counsel of Record
Margery S. Bronster
Robert M. Hatch
Sasha A. Hamada
Bronster Fujichaku Robbins
1003 Bishop Street, Suite 2300
Honolulu, Hawai‘i 96813
(808) 524-5644
krobbins@bfrhawaii.com
Counsel for Petitioner

292792

QUESTION PRESENTED
Courtney Bird alleges the State of Hawai‘i
systematically violates the due process rights of
parents by reporting them as confirmed child abusers
on the State’s Child Abuse Registry without ever
bearing the burden to show they have committed
child abuse, without providing any means to get off
the Registry even if they are innocent, and by
maintaining their names on the Registry for life. The
Ninth Circuit affirmed dismissal of Courtney’s claims
as untimely, holding the continuing violations
doctrine did not apply to Courtney’s claims even
though she seeks prospective removal from the
Registry and will be officially reported as a Child
Abuser for the rest of her life. The Ninth Circuit’s
decision conflicts with Flynt v. Shimazu, 940 F.3d 457
(9th Cir. 2019), Tearpock-Martini v. Borough of
Shickshinny, 756 F.3d 232 (3d Cir. 2014), Kunhle
Brothers, Inc v. County of Geauga, 103 F.3d 516 (6th
Cir. 1997), and Knight v. Columbus, 19 F.3d 579 (11th
Cir. 1994).
Four questions are presented:
1. Did the Ninth Circuit Court of Appeals err when it
affirmed the lower court’s ruling that Courtney’s §
1983 claim was barred by the statute of limitations?
2. Does a separate discrete injury to a protected
interest accrue anew every day the State of Hawai‘i
maintains a central registry officially designating a

ii
person as a child abuser
unconstitutional
statutory
framework?

pursuant to an
and
regulatory

3. Did the Complaint allege facts showing Courtney
suffered a violation of her due process rights every
day because the continued enforcement of the statute
deprives her of the ability to work in her chosen
profession without any means of expunging her name
from the Child Abuse Registry even by proof of
innocence?
4. Does the State of Hawai‘i’s Child Abuse Registry
violate due process because there are inadequate
safeguards against erroneous listing and inadequate
procedures for challenging an erroneous listing?

iii
PARTIES TO THE PROCEEDING
The caption contains the names of all of the parties
to the proceeding below.
PROCEEDINGS IN OTHER COURTS

Bird v. State of Hawai‘i, No. 17-16076, U.S. Court
of Appeals for the Ninth Circuit. Judgment entered on
Aug. 23, 2019.
Bird v. State of Hawai‘i, No. 1:15-cv-00304-DKWKJM, U.S. District Court for the District of Hawai‘i,
Judgment entered on Apr. 24, 2017.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDING .......................... iii
PROCEEDINGS IN OTHER COURTS .................... iii
TABLE OF CONTENTS ........................................... iv
TABLE OF APPENDICES ....................................... vi
TABLE OF AUTHORITIES .................................... vii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
STATUTES AND REGULATIONS
INVOLVED ............................................................2
I. Haw. Rev. Stat. § 350-2 ....................................2
II. Haw. Admin. R. § 17-1610-2 ............................4
III.Haw. Admin. R. § 17-1610-19 ..........................4
INTRODUCTION .......................................................5
I. STATEMENT OF THE CASE .........................6
A. Statement of Facts ......................................6
B. Hawai‘i’s Child Abuse Registry ................12
C. Procedural History ....................................14

v
II. REASONS FOR GRANTING THE
PETITION ......................................................15
A. The Importance of the Question
Presented ...................................................15
B. Courtney Seeks Prospective Relief
for Continued Harm Arising from
Continued Enforcement of an
Unconstitutional Statute ..........................17
1. The State of Hawai‘i is depriving
Courtney of a liberty interest
protected by the United States
Constitution .........................................18
2. Courtney challenges the State of
Hawai‘i’s ongoing enforcement of
a constitutionally invalid
regulatory scheme................................20
CONCLUSION ..........................................................26

vi
TABLE OF APPENDICES
APPENDIX A

PER

CURIAM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, FILED
AUGUST 23, 2019 ...................................... 1a -34a
APPENDIX B
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT
HAWAI‘I, FILED APRIL 24, 2017 ............ 35a-57a
APPENDIX C
HAWAI‘I ADMIN. R. SECTIONS ............. 58a-75a

vii
TABLE OF AUTHORITIES
Page(s)
Cases:

Bohn v. Dakota County,
772 F.2d 1433 (8th Cir. 1985)..............................19

DiBlasio v. Novello,
344 F.3d 292 (2d Cir. 2003) .................................19

Dixon v. Anderson,
928 F.2d 212 (6th Cir. 1991)................................23

Flynt v. Shimazu,
940 F.3d 457 (9th Cir. 2019).............. 17, 20, 21, 25

Hamilton ex rel. Lethem v. Lethem,
193 P.3d 839, 119 Hawai‘i 1 (Haw. 2008) ...........19

Hanover Shoe, Inc. v.
United Shoe Mach. Corp.,
392 U.S. 481 (1968)..............................................23

Knight v. Columbus,
19 F.3d 579 (11th Cir. 1994).................... 23, 24, 25

Kuhnle Brothers, Inc. v. County of Geauga,
103 F.3d 516 (6th Cir. 1997)..........................22, 25

Paul v. Davis,
424 U.S. 693 (1976) ..............................................18

Segal v. City of New York,
459 F.3d 207 (2d Cir. 2006) .................................19

viii

Tearpock-Martini v. Borough of Shickshinny,
756 F.3d 232 (3d Cir. 2014) .................................25

Williams v. Owens-Illinois, Inc.,
665 F.2d 918 (9th Cir. 1982)................................17

Williams v. U.S.,
711 F. Supp. 2d 1195 (D. Haw. 2010) .................13

Wisconsin v. Constantineau,
400 U.S. 433 (1971) ..............................................18

Wright v. O’Day,
706 F.3d 769 (6th Cir. 2013)................................23

Zinermon v. Burch,
494 U.S. 113 (1990) ..............................................19

Statutes and Other Authorities:
U.S. Const. Amend. XIV .....................................18, 20
28 U.S.C. § 1254(1)......................................................1
28 U.S.C. § 2101(c) ......................................................1
42 U.S.C. § 1983 ........................................ 5, 15, 21, 23
Haw. Admin. R. § 17-1610-19 .....................................4
Haw. Admin. R. § 17-1610-19(a)(1)(A) ....... 4, 5, 14, 16
Haw. Admin. R. § 17-1610-2 ....................... 4, 5, 11, 16
Haw. Admin. R. § 17-1610-11(c) ...............................12
Haw. Admin. R. § 17-1610-12(c) ...............................12

ix
Haw. Admin. R. § 17-1610-19(a)(5) ..........................14
Haw. Rev. Stat. § 350-1 ............................................14
Haw. Rev. Stat. § 350-1.1..........................................16
Haw. Rev. Stat. § 350-2 ......................................2, 4, 5
Haw. Rev. Stat. § 350-2(a) ........................................14
Haw. Rev. Stat. § 350-2(b) ........................................14
Haw. Rev. Stat. § 350-2(d) ........................................13
Haw. Rev. Stat. § 350-2(d)(1) ................................4, 12
Haw. Rev. Stat. § 350-2(d)(2) ....................................12
Haw. Rev. Stat. § 587A-28(d)(1) ...............................13
Sup. Ct. R. 13.1 ...........................................................1

PETITION FOR A WRIT OF CERTIORARI
Courtney Bird (“Courtney” or “Petitioner”)
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Ninth Circuit.
OPINIONS BELOW
The opinion of the Ninth Circuit below is reported
at Bird v. State of Hawai‘i, 935 F.3d 738 (9th Cir.
2019) (per curiam). App. infra, 1a-34a. The Ninth
Circuit affirmed the April 24, 2017 decision of the
district court granting Defendant’s motion for
summary judgment, reported at Bird v. State of
Hawai‘i, No. 15-00304 DKW-KJM, 2017 WL 1483450
(D. Haw. Apr. 24, 2017). App., infra, 35a-57a.
JURISDICTION
This Court’s jurisdiction is invoked under 28
U.S.C. § 1254(1). The Ninth Circuit’s opinion was
rendered on August 23, 2019. App., infra, 1a. This
petition is timely because it is being filed within 90
days of the Ninth Circuit’s decision affirming the
district court’s judgment. 28 U.S.C. § 2101(c); Sup. Ct.
R. 13.1.

2
STATUTES AND REGULATIONS INVOLVED
I. Haw. Rev. Stat. § 350-2
§ 350-2. Action on reporting
(a) Upon receiving a report concerning child
abuse or neglect, the department shall proceed
pursuant to chapter 587A and the department’s
rules.
(b) The department shall inform the
appropriate police department of all reports
received by the department regarding a case of
child abuse or neglect, including reports
received under section 350-1.1; provided that
the name of the person who reported the case of
child abuse or neglect shall be released to the
police department pursuant only to court order
or the person's consent.
(c) The department shall inform the
appropriate police department or office of the
prosecuting
attorney
of
the
relevant
information concerning a case of child abuse or
neglect when the information is required by the
police department or the office of the
prosecuting attorney for the investigation or
prosecution of that case; provided that the
name of the person who reported the case of
child abuse or neglect shall be released to the
police department or the office of the

3
prosecuting attorney pursuant only to court
order or the person’s consent.
(d) The department shall maintain a central
registry of reported child abuse or neglect cases
and shall promptly expunge the reports in cases
if:
(1) The department has found the reports to
be unsubstantiated; or
(2) The petition arising from the report has
been dismissed by order of the family court
after an adjudicatory hearing on the merits
pursuant to chapter 587A.
For purposes of expungement under
paragraph (1), a report is unsubstantiated only
when the department has found the allegations
to be frivolous or to have been made in bad
faith.
However, the department may retain
records and information of alleged child abuse
and neglect with respect to the child who is the
subject of the alleged abuse.
The department shall adopt rules as may be
necessary in carrying out this section.

4
Haw. Rev. Stat. § 350-2 (2016)1
II. Haw. Admin. R. § 17-1610-2
Text in the Appendix. App, infra, 58a-73a.
III.

Haw. Admin. R. § 17-1610-19

Text in the Appendix. App, infra, 74a-75a.

In 2017, after this lawsuit was filed, the statute was
amended to change the word “unsubstantiated” in subsection
(d)(1) to “not confirmed” and to remove the third paragraph from
the end of the text beginning “for the purposes of expungement.”
Haw. Rev. Stat. § 350-2 (2017). The regulations implementing
the statute have not, however, been amended, and retain this
language, so the law of Hawai‘i has not changed. Haw. Admin.
R. § 17-1610-2 (“Confirmed”) (“Unsubstantiated”) (App, infra,
61a, 72a); HAR § 17-1610-19(a)(1)(A) (App, infra, 74a.)
1

5
INTRODUCTION
This case was brought pursuant to 42 U.S.C.
§ 1983 because the Hawai‘i Department of Human
Services’ regulatory scheme for maintaining its Child
Protective Services Registry (“Child Abuse Registry”
or “Registry”) violates the due process rights of
parents. Hawai‘i’s regulations allow a bureaucrat to
“confirm” a report of child abuse and place a parent
on the Registry based only on “reasonable cause to
believe harm or threatened harm occurred.” Haw.
Rev. Stat. § 350-2 (2016); Haw. Admin. R.
(hereinafter, “HAR”) § 17-1610-2 (see definitions for
“Confirmed” and “Unsubstantiated”), App., infra, 61a,
72a; HAR § 17-1610-19(a)(1)(A), App., infra, 74a. This
standard does not require the State to ever prove the
parent listed on the Registry as a “confirmed” child
abuser ever actually abused or neglected a child. Ibid.
At the same time, the parent who is listed on the
Registry as a confirmed child abuser can only be
removed by showing the original report was “frivolous
or to have been made in bad faith.” Ibid. Thus, the
State need never prove a person is actually guilty of
child abuse, and even if it turns out they are innocent,
they will be branded by the State of Hawai‘i for life as
a child abuser. The consequences of such a
designation are grave as they not only subject a
person to general opprobrium, they also prevent that
person from adopting or participating in healthcare,
teaching, religious instruction, scouting, or any
activity that includes contact with children.

6
Courtney is a victim of Hawai‘i’s unconstitutional
scheme, and she brought this action to end it. The
district court dismissed her complaint holding she
failed to file it within two-years of knowing she had
wrongly been placed on the Registry. The Ninth
Circuit affirmed. Both were wrong and should be
reversed because Courtney is injured anew by the
State of Hawai‘i’s unconstitutional scheme every day
she remains on the Registry and continues to be
officially labelled by the State as a child abuser.
I. STATEMENT OF THE CASE
A. Statement of Facts
In 2003, Courtney married Frank Fontana
(“Frank”), who was in the Navy. ER 103.2 In June
2005, Courtney gave birth to a daughter TF. Ibid.
When the Navy transferred Frank to Hawai‘i,
Courtney and TF also moved to Hawai‘i to live with
him in base housing. Ibid. Shortly after arriving in
Hawai‘i, Courtney was expecting the couple’s second
child. ER 104.
In February of 2007, Courtney gave birth to their
second child, CF. ER 106. On February 8, 2007,
Courtney and Frank brought CF to Tripler Army
Citations to the Excerpts of Record and Supplemental Excerpts
of the Record from the Ninth Circuit proceeding are denoted as
“ER [page],” and “SER [page]” respectively. ECF Nos. 11, 18 (No.
17-16076 (9th Cir.)).
2

7
Medical Center (“TAMC”) where she was diagnosed
and treated for jaundice. Ibid. None of the healthcare
personnel who initially treated CF reported any signs
of abuse or neglect. Ibid. Two days later, CF was
wheezing, so Courtney took her to TAMC’s emergency
room. Ibid. None of the TAMC healthcare personnel
who treated CF reported any signs of abuse or neglect.

Ibid.

On February 21, 2007, a Navy-Marine Corps
Relief nurse gave CF an in-home check-up and she
was deemed healthy. ER 107. There was no
suggestion or report by the nurse of any sign of abuse
or neglect. Ibid.
On February 28, 2007 CF turned red and seemed
to have trouble breathing, so Courtney called 911 and
Emergency Medical Services transported CF to
Kapiolani Medical Center (“Kapiolani”). ER 107-108.
At Kapiolani, CF was treated by two doctors and
many nurses and none reported or noted any evidence
of neglect or abuse. Ibid. In addition, CF was given
chest x-rays which showed no injuries. Ibid.
CF was transferred to TAMC where she was
examined by several more doctors and nurses. ER
108. CF was diagnosed with apnea that was likely
the result of acid reflux. Ibid. In all, CF spent two
nights and two days in two hospitals and none of the
health care personnel noted any signs of abuse or
neglect. Ibid.

8
On March 5, CF was taken to the NHC Pearl
Harbor Pediatrics clinic for a well-baby exam. ER
108-109. The examining doctor did not notice any
signs of abuse or neglect. Ibid. On March 7, Courtney
took CF to the same clinic for a follow–up exam where
a different doctor examined her and diagnosed her
with acid reflux. The second doctor also did not note
any signs of abuse or neglect. Ibid.
On March 13, CF had a fever so Courtney took her
to TAMC’s ER. ER 109. None of the many healthcare
personnel who examined or treated her noted any
signs of neglect or abuse. Ibid. In addition, a chest xray was performed and it showed no sign of any
injuries. Two days later, Courtney took CF for a follow
up exam and another doctor also did not note any
signs of neglect or abuse. ER 110.
On March 20, 2007, Courtney took CF for another
well-baby exam and once again the examining doctor
did not note any signs of neglect or abuse. ER 110.
In all, more than thirty healthcare personnel
examined CF on twelve days from her birth in early
February to March 20, and none noted any signs of
neglect or abuse. See ER 106-11. In addition, chest
x-rays were administered on February 28 and March
13 and neither showed any injuries. ER 107-109.
Courtney never saw Frank neglect or abuse CF or TF.
See ER 104, 110-12.
On March 28, 2007, Courtney returned home from

9
a dentist appointment to find Frank administering
CPR to CF. ER 111. Frank had called for an
ambulance, and CF was taken to TAMC. Ibid. CF
passed away that day.
Ibid.
Courtney was
devastated by CF’s death and had no reason to
suspect that CF had died from anything but natural
causes. ER 111-112.
After CF’s death, the Department of Health
Services (“DHS”) removed TF (Courtney’s older
daughter) from Courtney’s custody and initiated an
investigation against Courtney and Frank. ER 111.
Unbeknownst to Courtney, the State put both
Courtney and Frank on the Registry because the
social workers determined CF’s death was “likely due
to maltreatment.” SER 0154 (emphasis added).
In fact, unbeknownst to Courtney and the State at
that time, Frank had murdered CF. ER 099. Frank
would later confess to killing CF to Naval Criminal
Investigative Service officers, plead guilty, and be
incarcerated. Ibid.
On April 12, 2007, DHS petitioned the Family
Court for jurisdiction over TF. Consequently,
Courtney was focused on regaining custody of TF in
Family Court. ER 112. Not knowing that she was a
confirmed perpetrator of child abuse/neglect,
Courtney cooperated with DHS to try to regain
custody of TF. Ibid. Eventually, Courtney succeeded
in regaining custody of TF and was granted
permission to leave the state to move back to

10
Tennessee to live with her father. ER 113. The court
order dismissing the custody action stated, “Based
upon the record and/or the evidence presented, the
court finds that ... [th]e child[]’s family can provide a
safe family home without the assistance of a service
plan ... the prior award of [] family supervision is
revoked; ... [and] [] Jurisdiction is terminated.” ER
094.
On
June 3,
2008,
Courtney
appeared
telephonically before the Hawai‘i Family Court and
learned that her case was closed. ER 113. At no point
during any of the proceedings was Courtney informed
that she was a confirmed perpetrator of child abuse or
that she was on a Child Abuse Registry (“Registry”).
Ibid. Courtney did not know that obtaining a finding
or ruling from the family court would be the only way
for her to get her name removed from a registry she
did not know existed.
Courtney remained in Tennessee and eventually
remarried. ER 113. Courtney and her new husband
decided that they wanted to adopt an older child from
Africa, preferably one that was HIV positive, so that
they could ensure that the child received life-saving
medical care. Ibid. During the adoption process, it
was discovered that Courtney was listed as a
confirmed perpetrator of child abuse/neglect in
Hawai‘i. ER 116. This discovery rendered Courtney
ineligible to adopt. Ibid.
Courtney was shocked by this revelation and

11
contacted the State of Hawai‘i Child Welfare Services
(“CWS”) to determine what had happened. ER 114.
Courtney was bounced between numerous individuals
and was eventually told that not only was she a
“confirmed” perpetrator of abuse, but that she was on
the Registry. ER 114.
Courtney attempted to resolve the issue and
requested an administrative hearing in September of
2012. ER 114-15. DHS initially dismissed her
request, asserting that it had no jurisdiction to hear
an appeal because it had previously filed a petition in
Family Court. ER 125, 229-253. DHS changed tack
after receiving a letter from John Choi, Courtney’s
attorney, who argued that Courtney should be
removed from the Registry. Ibid. DHS abruptly and
unilaterally set a hearing with less than two weeks’
notice. Ibid.
By letter, Mr. Choi questioned DHS’s unilateral
decision to schedule a hearing when it had denied
Courtney’s initial request and she had not made
another request. ER 125, 229-253. He also objected
to the short notice. Ibid. Finally, he questioned the
fairness of any hearing. Ibid. DHS responded that
the hearing would be limited to determining “whether
DHS properly confirmed (1) abuse of a minor and (ii)
threat of abuse of a minor.” Ibid. DHS regulations
define “Confirmed” to “mean that an investigation
conducted by the department revealed reasonable
cause to believe that harm or threatened harm
occurred.” HAR § 17-1610-2, App., infra, 61a. Given

12
this impossible standard and DHS’s prior assertion of
a lack of jurisdiction, Courtney did not request
another hearing. Ibid.
B. Hawai‘i’s Child Abuse Registry
Hawai‘i law provides two methods for challenging
an individual’s placement on the Registry—an
administrative hearing or a separate family court
proceeding. See Haw. Rev. Stat. § 350-2(d)(1); HAR §
17-1610-12(c). When a report of abuse is made, DHS
can immediately infringe upon parental rights and
remove a child. If DHS takes custody of the child, the
case proceeds through the family court and the
individual is automatically placed on the Registry.
Although DHS regulations require notice be given,
DHS routinely fails to give notice, and persons
participating in family court proceedings rarely know
they are on the Registry. HAR § 17-1610-11(c); ER
0122-0123, ER 0127-0129. In order to be removed
from the Registry, the individual must forego custody
and take the case all the way to a full adjudicatory
trial before the family court under chapter 587A. See
Haw. Rev. Stat. § 350-2(d)(2); see also HAR § 17-161012(c) (foreclosing right of administrative review of
initial abuse report where DHS elects to proceed in
family court). This presents an impossible decision
between clearing your name and getting your child
back.
At the adjudicatory hearing, the family court will
determine “[w]hether the child’s physical or

13
psychological health or welfare has been harmed or is
subject to threatened harm by the acts or omissions of
the [listed individual].” Haw. Rev. Stat. § 587A28(d)(1). Significantly, if DHS returns custody of the
child and settles the family court proceeding before it
reaches the adjudicatory phase, listed individuals who
are wrongfully listed in the Registry have absolutely
no recourse for expunging their names. See ibid.
If DHS has not initiated a separate family court
proceeding for custody of a child, and the parent gets
notice, she may file an administrative appeal of her
placement on the Registry. Ibid. In the administrative
proceeding, the burden is on the individual to meet
the impossible standard of proving the that the initial
report of abuse was “frivolous or made in bad faith.”
See Haw. Rev. Stat. § 350-2(d); HAR 17-1610-2
(“Unsubstantiated”), App., infra, 72a; HAR § 17-16109(a)(1)(A), App. infra, 74a. If the parent cannot meet
this exacting standard, she will remain on the
Registry for life. See Williams v. U.S., 711 F. Supp.
2d 1195 (D. Haw. 2010) (“Chapter 350 does not set up
an elaborate scheme of protection in the same way
that Chapter 587 does.”) Accordingly, the “frivolous or
made in bad faith” standard provides no recourse for
parents to prove they are innocent of the suspected
report of abuse and have their names expunged.
Comparing the very low standard for being placed
on the Registry with the impossibly high standard for
removal, it is apparent that Hawai‘i’s regulatory
scheme is inherently unfair. This is particularly

14
unfair to women in domestic violence situations
because they may not only be entirely innocent but
victims themselves.
Under this scheme, the individual, and not the
state, bears the risk of error. Hawai‘i regulations
create a high likelihood of “false positives” because
they require that “confirmed” and even “not confirmed”
or “unsubstantiated” reports of child abuse be listed on
the Registry. HAR § 17-1610-19(a)(1)(A), App. infra,
74a-75a. A person can, thus, be subject to a report of
child abuse whenever there is “reason to believe”
neglect or abuse has or may occur without regard to
who perpetuated the abuse. See Haw. Rev. Stat. § 3501 (“the facts and circumstances which cause a person
to have reason to believe that child abuse or neglect
has occurred or that there exists a substantial risk that
child abuse or neglect may occur in the reasonably
foreseeable future.”) Moreover, DHS must notify
police and prosecutors of any report of abuse or neglect
it receives. Haw. Rev. Stat. § 350-2(a), (b). Upon an
inquiry, DHS will publicly disclose to others that you
are on the Registry without your knowledge. See HAR
§ 17-1610-19(a)(5) (DHS “shall comply with requests
from other states to check its central registry for the
purpose of conducting background checks in foster or
adoptive placement cases.”)
C. Procedural History
Courtney filed her class action Complaint in the
state circuit court on July 20, 2015, alleging (1)

15
violation of a state constitutional right to due process
(Count I), and (2) violation of 42 U.S.C. § 1983 (Count
II). Defendants timely removed the action to the
federal district court.
On September 29, 2016, Defendants filed their
motion for summary judgment, arguing that the
Complaint failed as a matter of law. Thereafter, the
parties filed supplemental briefing on the issue of
whether Courtney’s section 1983 claim was barred by
the statute of limitations. The supplemental briefs
were submitted on January 23, 2017 and February 6,
2017. (No. 15-00304 DKW-KJM (D. Haw.), ECF Nos.
61 (Courtney), 62 (Defendants).
On April 24, 2017, the district court entered its
Order granting Defendants’ motion as to Count II,
and remanded the remaining state-law claim to the
state circuit court. Ibid., ECF No. 68.
Petitioner filed her Notice of Appeal on May 23,
2017. The Ninth Circuit’s decision was entered on
Aug. 23, 2019. App., infra, 1a
II. REASONS FOR GRANTING THE PETITION
A. The Importance of the Question Presented.
Under Hawai‘i law, a bureaucrat can place a
parent’s name on the state’s official child abuse
registry branding them a child abuser based on
nothing more than the bureaucrat’s judgment that

16
there is “reasonable cause to believe that harm or
threatened harm occurred” to a child in the parent’s
care. HAR § 17-1610-2 (“Confirmed”), App., infra, 61a;
Haw. Rev. Stat. § 350-1.1. Thus, the parent can be
entirely innocent yet still be labelled a child abuser if
the parent’s spouse abuses or neglects a child in the
same household, even if the parent is wholly unaware
of it. Ibid. Making matters worse, under Hawai‘i law,
once placed on the Registry as a confirmed abuser, a
parent can only get off by showing the initial
placement was “frivolous or made in bad faith.” HAR
§ 17-1610-2, App., infra, 72a; HAR § 17-161019(a)(1)(A), App., infra, 74a. It does not matter if
subsequent facts show the parent was entirely
innocent, so long as the original report of abuse or
neglect was made in “good faith” and was not
“frivolous.” Courtney’s tragic story, where her
husband murdered her infant without warning when
she was out of the house, illustrates the manifest
injustice of Hawai‘i’s scheme.
The Ninth Circuit held that the State of Hawai‘i
can continue to report a person like Courtney as a
child abuser for the rest of her life, and she has no
recourse unless she brings an action to be removed
from the registry within two years of learning she is
on it. App., infra, 26a-27a. The Ninth Circuit’s
decision condemns countless innocent parents to a
lifetime of being falsely labelled as child abusers by
the State of Hawai‘i. The Court should grant
Courtney’s petition for certiorari to redress this
manifest injustice.

17
B. Courtney Seeks Prospective Relief for
Continued Harm Arising from Continued
Enforcement of an Unconstitutional Statute
The Ninth Circuit held Courtney’s due process
claims were “best understood as the ‘continuing
impact from [a] past violation[],’”so the statute of
limitations accrued under the normal discovery rule.
App., infra, 25a. (quoting Williams v. Owens-Illinois,
Inc., 665 F.2d 918, 924 (9th Cir. 1982). Just two
months later, however, the Ninth Circuit held that
where “the continued enforcement of a statute inflicts
a continuing or repeated harm, a new claim arises
(and a new limitations period commences) with each
new injury.” Flynt v. Shimazu, 940 F.3d 457, 462 (9th
Cir. 2019).
Every day the state of Hawai‘i reports that
Courtney is a child abuser, she suffers a continuing
and repeated harm that prevents her from teaching
Sunday School, adopting, or caring for children. Every
day, the State of Hawai‘i has the power to repeal its
unconstitutional scheme and allow innocent parents,
like Courtney, to seek removal from the registry, but
it refuses to do so. This is not a situation where the
State of Hawai‘i caused harm to Courtney in the past
that it is now powerless to end. As in Flynt, the Ninth
Circuit should have recognized that in this case
Courtney challenges an unconstitutional law that
continues to be enforced by the State of Hawai‘i and
that causes continuing harm to persons like
Courtney, so the statute of limitations should not

18
prevent Courtney from seeking prospective relief for
the State’s continuing deprivation of her liberty
interests.
1. The State of Hawai‘i is depriving Courtney of a
liberty interest protected by the United States
Constitution.
This Court has previously recognized that a
person’s reputation is a protected liberty interest
under the federal due process clause. See, e.g.,
Wisconsin v. Constantineau, 400 U.S. 433, 437 (1971)
(holding that a protectable liberty interest is
implicated “[w]here a person’s good name, reputation,
honor, or integrity is at stake because of what the
government is doing to him [or her.]”); Paul v. Davis,
424 U.S. 693, 701 (1976) (holding that harm to
reputation coupled with some more tangible interest
such as employment is sufficient to invoke the Due
Process Clause).
By permanently and officially branding Courtney
a “child abuser,” the State of Hawai‘i continues to
seriously damage her standing and associations in
her community. This imposes on her a stigma or
other disability that forecloses her freedom to teach,
adopt, or care for children. As such, she is deprived of
‘liberty’ protected by the Fourteenth Amendment.
“‘Stigma plus’ refers to a claim brought for injury
to one’s reputation (the stigma) coupled with the
deprivation of some ‘tangible interest’ [e.g., the loss of

19
government employment] or property right (the plus),
without adequate process.” Segal v. City of New York,
459 F.3d 207, 209 n.1 (2d Cir. 2006) (alteration in
original) (emphasis omitted) (quoting DiBlasio v.
Novello, 344 F.3d 292, 302 (2d Cir. 2003)). See also
Bohn v. Dakota County, 772 F.2d 1433 (8th Cir. 1985)
(holding there is “a protectable interest in reputation
where the stigma of being identified as a child abuser
was tied to the protectable interest in privacy and
autonomy of family relationships.”)
Here, Petitioner has alleged a harm accompanied
by the deprivation of her right of employment in her
chosen profession without due process.3 See Zinermon
v. Burch, 494 U.S. 113, 125 (1990) (“In procedural due
process claims, the deprivation by state action of a
constitutionally protected interest in ‘life, liberty, or
property’ is not in itself unconstitutional; what is
unconstitutional is the deprivation of such an interest
without due process of law.”) Courtney has thus

Notably, the Hawai‘i Supreme Court has recognized that
reputational harm is sufficient by itself to require that a report
of abuse be addressed on the merits. Hamilton ex rel. Lethem v.
Lethem, 193 P.3d 839, 850, 119 Hawai‘i 1, 12 (Haw. 2008)
(citation omitted) (“hold that, because there is a reasonable
possibility that the family court’s issuance of the TRO against
Father will cause harm to Father’s reputation, we vacate the
ICA’s June 23, 2008 judgment on appeal and remand the case to
the ICA with instructions to address the merits of Father’s
case.”)
3

20
satisfied the stigma-plus test sufficient to state a
cognizable procedural due process claim.
2. Courtney challenges the State of Hawai‘i’s
ongoing enforcement of a constitutionally
invalid regulatory scheme.
The Ninth Circuit’s erroneous ruling in this case
was quickly contradicted by a subsequent decision in
the same circuit that also considered the application
of the statute of limitations to a section 1983 claim
arising from an alleged constitutional violation.
Flynt, 940 F.3d 457. In fact, the dissent in Flynt noted
the majority’s decision was inconsistent with the
decision in this case. 940 F.3d at 466 (Rawlinson, J
dissenting).
In Flynt the Ninth Circuit considered a facial
constitutional challenge to California gambling
licensing laws under the Dormant Commerce Clause.4
The California laws prohibited the plaintiff, who
owned a California licensed cardroom, from owning
more than 1% of any business that “conducts lawful
gambling” outside of California. 940 F.3d at 460. In
Flynt states, “Although our court has yet to apply a state
statute of limitations to a facial challenge under the Dormant
Commerce Clause, we see no reason to treat such a claim
differently from facial constitutional claims under the First,
Fifth, or Fourteenth Amendments.” 940 F.3d at 461. Courtney
challenges the Hawai‘i regulations under the Fourteenth
Amendment.
4

21
2014, the plaintiff sought renewal of his California
licenses, but renewal was denied because he owned
1% and his wife owned 99% of a casino in Washington
state. Ibid. The plaintiff responded by divesting his
interest in the Washington casino and requesting an
appeal. In a decision published on June 12, 2014, the
California Commission reinstated his licenses and
fined him for his past violation.
More than two years later, on November 30, 2016,
the plaintiff sued the state of California under 42
U.S.C. § 1983 arguing the California gambling
licensing laws violated the Dormant Commerce
Clause by discriminating against out-of-state
economic interests. Ibid. The district court dismissed
the claims as untimely under the two-year statute of
limitations applicable to section 1983 claims on the
theory that the claims accrued no later than June 12,
2014 when the State of California fined him for his
control over the Washington casino. The Ninth
Circuit reversed.
The Ninth Circuit held that California’s continued
enforcement of its licensing statutes created
continuing violations, triggering a new limitations
period each time the licensees abstained from out-ofstate investment opportunities in gambling. 940 F.3d
at 463-464. The Ninth Circuit noted that the licensees
alleged a “present inability to invest” and sought
prospective relief, rather than loss of past investment
opportunities. Thus, the court construed the issue as
“whether Licensees’ claims accrued outside the

22
limitations period[,]” and found that the claims
continued to accrue each time the licensees abstained
from participating in investment opportunities.
In reaching this decision, the Ninth Circuit cited

Kuhnle Brothers, Inc. v. County of Geauga, 103 F.3d
516 (6th Cir. 1997), a Sixth Circuit case Courtney
relied on below, for the proposition that continued or
repeated harm arising as a result of continued
enforcement of a statute creates a new claim. Kuhnle
held that because a new injury arises each day the
challenged statute remained in force, a new
limitations period began to run as to that day’s
damage. The Sixth Circuit determined that the
deprivation of a trucking company’s liberty interest in
intrastate travel was a “continuing violation” because
it “barred Kuhnle from using the roads in question on
an ongoing basis, and thus actively deprived Kuhnle
of its asserted constitutional rights every day that it
remained in effect.” The court stated:
Kuhnle suffered a new deprivation of
constitutional rights every day that Resolution
91-87 remained in effect, rather than merely
suffering additional harm from a prior
unconstitutional act. Since the last alleged
deprivation occurred less than two years before
Kuhnle filed its complaint, Kuhnle’s action is
not time-barred.
103 F.3d at 522. This is precisely the situation
Courtney alleges. She suffers a new deprivation of

23
her right to be free of the false moniker “child abuser”
each day Hawai‘i’s regulations remain in effect,
rather than just suffering harm from a prior act.5 See

also Hanover Shoe, Inc. v. United Shoe Mach.
Corp., 392 U.S. 481, 502 n. 15 (1968) (finding action

not time-barred due to “a continuing violation . . .
which inflicted continuing and accumulating harm”);
Dixon v. Anderson, 928 F.2d 212, 215-18 (6th Cir.
1991) (discussing application of the continuing
violation doctrine in employment discrimination
cases).
Similarly, in Knight v. Columbus, 19 F.3d 579
(11th Cir. 1994), the Eleventh Circuit, in a case
addressing the applicability of the continuing
violations doctrine to statute of limitations under the
In opposing Hawai‘i’s motion for summary judgment, Courtney
submitted a declaration, stating that she had previously worked
as a substitute teacher with the expectation of returning to
teaching, but that her name on the Registry denies her the
ability to continue in that field. No. 15-00304 DKW-KJM (D.
Hawa.) ECF No. 43-1 at 15. That is sufficient to show an injury
to a protectable liberty interest. See Wright v. O’Day, 706 F.3d
769, 772 (6th Cir. 2013) (holding thirteen-year old child had
standing to bring § 1983 action alleging that state agency’s
decision to place him on state’s child-abuse registry violated due
process, even though regulation prevented agency from
releasing child’s registry information after two years, and there
would be no clear injury until child applied to work in affected
field and was excluded, where child had already been classified
as child abuser, record was not expunged, and state law would
prevent child from challenging factual basis for his classification
in future.)
5

24
Fair Labor Standards Act, clarified the distinction
between the continuing effect of an earlier violation
and a separate injury triggering a new limitations
period:
The critical distinction in the continuing
violation analysis, therefore, is whether the
plaintiffs
complain
of
“‘the
present
consequence of a one-time violation, which
does not extend the limitations period, [or] the
continuation of that violation into the present,
which does.’” Where a continuing violation is
found, the plaintiffs can recover for any
violations for which the statute of limitations
has not expired.
19 F.3d 579, 580–81 (internal citations and footnote
omitted) (emphasis added). The Eleventh Circuit
further explained:
The term “continuing violation” also implies
that there is but one incessant violation and
that the plaintiffs should be able to recover for
the entire duration of the violation, without
regard to the fact that it began outside the
statute of limitations window. That is not the
case. Instead of one on-going violation, this
case involves a series of repeated violations of
an identical nature.

25

Ibid. at 582. Thus, “each violation gives rise to a new
cause of action” and “begins a new statute of
limitations period as to that particular event.” Ibid.
Finally, in Tearpock-Martini, the Third Circuit
considered a section 1983 claim by a property owner
that a municipality’s religiously themed sign violated
the establishment clause. 756 F.3d at 234. The sign
was erected in August 2008, but the property owner
did not file suit until November 2012. Ibid. The
applicable statute of limitations was two years, but
the court held the plaintiff’s claims for injunctive
relief to have the sign removed remained viable.
Like the plaintiffs in Flynt, Kuhnle, Knight, and
Tearpock-Martini, Courtney does not seek to recover
for her initial placement on the Registry or for the
entire duration of her listing. Rather, Courtney
alleges a present inability to have her name removed
from the Registry, and she seeks prospective relief for
removal form the Registry.

26
CONCLUSION
For the foregoing reasons Petitioner Courtney
Bird requests that the Court grant her Petition for a
writ of certiorari.
Respectfully submitted,
/s/ Kenneth S. Robbins
Kenneth S. Robbins, Counsel of Record
Margery S. Bronster
Robert M. Hatch
Sasha A. Hamada
BRONSTER FUJICHAKU ROBBINS
1003 Bishop Street, Suite 2300
Honolulu, Hawai‘i 96813
Telephone: (808) 524-5644
Facsimile: (808) 599-1881
rhatch@bfrhawaii.com
November 21, 2019

APPENDIX

1a
Appendix
A OPINION OF THE
APPENDIX A — PER
CURIAM
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED AUGUST 23, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16076
COURTNEY BIRD,
Plaintiff-Appellant,
v.
STATE OF HAWAI‘I; DEPARTMENT OF HUMAN
SERVICES; DHS, SOCIAL SERVICES DIVISION,
CHILD WELFARE SERVICES BRANCH; PANKAJ
BHANOT, Department of Human Services Director;
JEFFREY R. WOODLAND; DOES,
Defendants-Appellees.
D.C. No. 1:15-cv-00304-DKW-KJM
Appeal from the United States
District Court for th e District of Hawai‘i
Derrick Kabala Watson, District Judge, Presiding
Argued and Submitted February 12, 2019
Submission Vacated February 26, 2019
Resubmitted August 23, 2019
University of Hawai‘i Manoa

2a
Appendix A
Filed August 23, 2019
Before: Richard C. Tallman, Jay S. Bybee,
and N. Randy Smith, Circuit Judges.

Per Curiam Opinion;
Concurrence by Judge Bybee
SUMMARY*
Civil Rights
The panel affirmed the district court’s dismissal, on
statute of limitations grounds, of a complaint brought
pursuant to 42 U.S.C. § 1983 alleging that the Hawai‘i
Department of Human Services violated plaintiff’s right
to due process when it listed her, without notice, on the
State’s Child Protective Services Central Registry.
Plaintiff and her then-husband were placed on the
State’s Registry after their 7-week-old baby died of
cardiac arrest in 2007. Bird’s husband later confessed to
killing the infant and a criminal investigation concluded
that plaintiff was not a suspect. The Department of Health
Services did not, however, remove plaintiff’s name from
the Registry, nor did it notify her that her name was listed.
In 2013, plaintiff discovered, during a background check,
that her name was on the Registry. Plaintiff’s attorney
communicated with the Department and threatened to
* This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the reader.

3a
Appendix A
sue when plaintiff’s name was not removed, but did not
file suit until more than two years later.
Applying Hawai‘i’s two-year statute of limitations, the
panel held that plaintiff’s complaint was not subject to any
exceptions from the normal discovery rule of accrual. The
panel held that plaintiff had knowledge of the injury giving
rise to her claim by May 2013 when she threatened to sue
the Department if she was not removed from the Registry.
Accordingly, her suit, filed in July 2015, was time-barred.
The panel rejected plaintiff ’s assertion that a
claim seeking injunctive relief to invalidate an ongoing
unconstitutional statutory and regulatory scheme does
not accrue until the statute is repealed. The panel held
that the traditional interests of protecting defendants and
facilitating the administration of claims was applicable to
a due process claim and justified enforcing a limitations
period through the discovery rule of accrual. The panel
further rejected plaintiff’s claim that her complaint
alleged a continuing violation. The panel held that because
the violation plaintiff alleged was the placement of her
name on the Registry without constitutionally required
due process, she had brought only an individualized
claim. As such, the systematic branch of the continuing
violations doctrine was inapplicable, and the discovery
rule of accrual applied.
Concurring in the per curiam opinion, Judge Bybee
stated that plaintiff had assuredly stated a plausible
due process claim and that the Department of Health
Services should not interpret the panel’s decision, which

4a
Appendix A
was based on statute of limitations grounds, as in any way
condoning the blatantly insufficient procedures by which
the Department maintains plaintiff’s name in its Central
Child Abuse Registry.
COUNSEL
Margery S. Bronster (argued), Robert M. Hatch, and
Kelly A. Higa, Bronster Fujichaku Robbins, Honolulu,
Hawai‘i; John Y. U. Choi, Honolulu, Hawai‘i; for PlaintiffAppellant.
Ryan M. Akamine (argued) and Caron M. Inagaki, Deputy
Attorneys General; Department of the Attorney General,
Honolulu, Hawai‘i; for Defendants-Appellees.
OPINION
PER CURIAM:
On March 28, 2007, plaintiff-appellant Courtney Bird
returned home from a dentist appointment to find her
then-husband administering CPR to their seven-weekold baby, who later died at the hospital of cardiac arrest.
As a result of the infant’s death, the Hawai‘i Department
of Human Services (“DHS”) listed both Bird and her
husband on the state’s Central Child Abuse Registry
(“CCAR”). Bird’s husband later confessed to killing their
infant baby and the criminal investigation concluded that
Bird was not a suspect. DHS, however, did not remove
Bird’s name from the CCAR. Throughout this time, DHS
never told Bird that she was listed on the registry.

5a
Appendix A
Bird did not learn that she had been listed on the
CCAR until June 2012—more than five years later—when
the report turned up on a background check. When a
request for a hearing and various communications with
DHS failed to result in Bird’s removal from the CCAR,
Bird’s attorney threatened DHS in May 2013 with suit
in federal court. Bird did not file suit, however, until
July 20, 2015—more than two years after her extensive
communications with DHS and previous threat to sue. The
district court determined that Bird’s claims brought under
42 U.S.C. § 1983 were untimely and granted summary
judgment in favor of the State.
Because Bird’s complaint is not subject to any
exception from the normal discovery rule of accrual, we
agree that Bird’s claim accrued no later than May 2013,
when Bird threatened to sue DHS if she was not removed
from the CCAR. We affirm.
I. FACTS AND PROCEEDINGS BELOW
A.

Statutory Background

Like most states, Hawai‘i law requires DHS to
maintain a central registry for reports of child abuse or
neglect. See Haw. Rev. Stat. § 350-2(d) (“The department
shall maintain a central registry of reported child
abuse or neglect cases . . . .”). “Central registry reports
are typically used to aid agencies in the investigation,
treatment, and prevention of child abuse cases . . . .
Central registry records also are used to screen persons
who will be entrusted with the care of children,” such as

6a
Appendix A
“individuals [who] apply[] to be foster or adoptive parents
or child or youth care providers.” Establishment and
Maintenance of Central Registrations for Child Abuse or
Neglect Reports at 2, Child Welfare Information Gateway:
U.S. Dep’t of Health & Human Serv., Children’s Bureau
(2018).
At times relevant to this suit, § 350-2 further provided
that reports maintained in the central registry “shall [be]
promptly expunge[d] . . . if: (1) The department has found
the reports to be unsubstantiated; or (2) The petition
arising from the report has been dismissed by order of
the family court after an adjudicatory hearing on the
merits.” Act of May 18, 2017, sec. 3, § 350-2(d), 2017 Haw.
Sess. Laws 60, 61-62.1 The statute stated that “a report
is unsubstantiated only when the department has found
the allegations to be frivolous or to have been made in
bad faith.” Id. The statute provided, and continues to
provide, however, no procedures by which DHS should
investigate, record, or expunge reports in the CCAR. Such
procedures are left to “the department’s rules.” Haw. Rev.
Stat. § 350-2(a).
The Hawai‘i Administrative Rules require DHS to
record accused individuals in the CCAR whenever it
receives a report of serious child abuse. Haw. Admin. R.
§ 17-1610-18. DHS is simultaneously required to commence
an investigation. Id. At the conclusion of its investigation,
1. Haw. Rev. Stat. § 350-2(d) was amended effective May 29,
2017, so that “not confirmed” reports of child abuse are also expunged
from the registry. Act of May 18, 2017, sec. 3, § 350-2(d), 2017 Haw.
Sess. Laws 60, 61-62.

7a
Appendix A
DHS will declare the report “confirmed,” “not confirmed,”
or “unsubstantiated.” Id. § 17-1610-19(a)(1)-(3). Only a
report declared “unsubstantiated” will be expunged from
the CCAR. Id. § 17-1610-19(a)(1). In cases where the report
is declared “confirmed” or “not confirmed,” the individuals
subject to the allegations remain on the CCAR. See id.
§ 17-1610-19(a)(2), (4). 2 The regulations specify that DHS
“shall comply with requests from other states to check its
central registry for the purpose of conducting background
checks in foster or adoptive placement cases.” Id.
§ 17-1610-19(a)(5).
Once DHS has completed its investigation and
determined that an accused individual should remain on
the CCAR, state regulations require DHS to give written
notice to the “identified perpetrator or maltreater.” Id.
§ 17-1610-11(c). Anyone “dissatisfied with the disposition
of the department’s assessment or action taken by the
department” has two routes for challenging his or her
inclusion in the CCAR. Id. § 17-1610-12(b). First, if DHS
has not yet commenced any proceeding against the
listed individual in family court, he or she may file an
administrative appeal. Id. At the appeal, however, the
listed individual remains subject to the requirements for
expungement laid out in Hawai‘i Revised Statutes § 350-2,
which at all relevant times in this case required the listed
individual to prove that the report was “unsubstantiated,”
2. We note that while the Hawai‘i statute governing the CCAR
has been amended to expunge “not confirmed” reports of child
abuse, the regulations have not kept pace and still require that “not
confirmed” reports of child abuse remain on the registry. See Haw.
Admin. R. § 17-1610-19.

8a
Appendix A
in other words, that it was “frivolous or . . . made in bad
faith.” Act of May 18, 2017, sec. 3, § 350-2(d), 2017 Haw.
Sess. Laws 60, 61-62. If the listed individual was unable
to meet this exacting standard, he or she remained on
the registry.
Alternatively, if DHS has petitioned the family
court for custody of the listed individual’s child(ren), the
listed individual is not permitted to seek administrative
review. Haw. Admin. R. § 17-1610-12(c). Instead, the listed
individual’s exclusive means by which to expunge his or
her listing in the CCAR is to prevail at an adjudicatory
hearing before the family court. Haw. Rev. Stat.
§ 350-2(d)(2). At the adjudicatory hearing, the family
court will determine “[w]hether the child’s physical or
psychological health or welfare has been harmed or is
subject to threatened harm by the acts or omissions of
the [listed individual].” Haw. Rev. Stat. § 587A-28(d)(1).
Significantly, if DHS returns custody of the child and
settles the family court proceeding before it reaches the
adjudicatory phase, the statutory scheme leaves listed
individuals who are wrongfully listed in the CCAR with
no recourse for expunging their names. See id.
B.

Factual Background

In 2003, Bird married Frank Fontana and two years
later gave birth to a daughter, T.F. Fontana, who worked
for the Navy, was subsequently transferred to Hawai‘i.
Bird and their daughter accompanied him to Hawai‘i to
live in base housing.

9a
Appendix A
Shortly after their arrival, in February 2007, Bird
gave birth to a second daughter, C.F. Over the next six
weeks, between early February and March 20, C.F. was
examined by over thirty healthcare personnel in multiple
well-child checks, and as she was treated for jaundice,
wheezing, apnea induced by acid reflux, and a fever. Over
the course of this treatment, C.F. underwent two chest
x-rays, neither of which showed any injuries. None of the
doctors and nurses that treated C.F. ever noted any signs
of abuse or neglect.
On March 28, Bird returned home from a dentist
appointment to find Fontana administering CPR to C.F.
C.F. was transported by ambulance to Tripler Army
Medical Center, where she died of cardiac arrest. The
doctors and nurses who examined C.F. noted multiple
bruises on her body, evidence of a fractured rib, and
evidence of possible fractures in her femurs. As a result,
an emergency department nurse at the hospital called the
Child Welfare Services branch (“CWS”) of DHS to report
a case of possible child abuse.
In accordance with its regulations, DHS listed
both Bird and Fontana on the CCAR and initiated an
investigation. On April 2, an investigative multidisciplinary
team concluded that C.F.’s death was likely due to child
maltreatment, and recommended that DHS seek custody
of Bird and Fontana’s remaining daughter, T.F. On the
basis of this report, CWS concluded on April 5 that the
alleged physical abuse of C.F. by her parents, Fontana
and Bird, was “confirmed.” DHS then filed a Petition for
Foster Custody of their remaining daughter, T.F., with

10a
Appendix A
the family court. DHS, however, failed to give Bird notice
that she was now listed on the CCAR as a “perpetrator
or maltreater.”
At the same time, Naval Criminal Investigative
Services (“NCIS”) initiated an investigation into the
death of C.F. In July 2007, Fontana “confessed [to Navy
investigators] to harming [C.F.] with actions that caused
[her] death.” Fontana was charged with first degree
murder and subsequently pled guilty to the crime. In
November 2007, NCIS reported to DHS that “[Bird
was] not a suspect” in their on-going investigation.
Nevertheless, because DHS did not conclude that its initial
assessment was “frivolous or in bad faith,” DHS took no
action and Bird remained on the CCAR as a “confirmed”
child abuser.
Meanwhile, Bird was still engaged with the family
court in an attempt to regain custody of T.F. “After
months of home checks, supervised visits, and evaluations
by various medical and social work professionals,” Bird
was granted physical custody of T.F. in November 2007.
In December, the family court authorized Bird to leave
Hawai‘i with T.F. and return to Tennessee where she could
live with her father on the condition “that Tennessee DHS
approves the . . . placement, and Tennessee DHS puts in
writing that services for [Bird] and [T.F.] will be in place
when mother and daughter arrive in Tennessee, and both
are received by the Court.” In June 2008, the Hawai‘i
family court terminated its jurisdiction and revoked the
prior order of family supervision. Although the family
court entered no findings with respect to Bird’s alleged

11a
Appendix A
mistreatment of C.F., it found that “[T.F.’s] family can
provide a safe family home without the assistance of a
service plan.”
Bird alleges that throughout these events, she was
never given notice, written or otherwise, of her listing
on the CCAR and that she “did not have any knowledge
that a child abuse registry even existed.” Without that
notice, Bird believed that an adjudicatory trial before the
family court concerned only her custody of her surviving
daughter, T.F. She did not know that obtaining a finding
or ruling from the family court would be the only way
for her to get her name removed from a registry she did
not know existed. Bird had rejected an adjudicatory trial
before the family court, opting instead to work with DHS
to drop the case. Bird contends that without notice, she did
not know “that failure to adjudicate [her] claim through
the Family Court would result in [her] being on a list of
confirmed child abusers for the rest of [her] life.”
After returning to Tennessee, Bird eventually
remarried. Bird and her new husband decided that they
wanted to adopt a child from Africa, “[p]referably . . .
an older child who was HIV positive so that [they] could
provide him or her with the kind of medical and family care
that [he or she was] lacking.” During the adoption process,
the adoption agency conducted background checks with
each of the states where Bird had previously lived, and
discovered in June 2012 that she was listed on Hawai‘i’s
Central Child Abuse Registry. This report rendered Bird
ineligible to adopt.

12a
Appendix A
Bird contacted DHS in June 2012 and requested an
administrative hearing before the agency. 3 DHS initially
refused to give Bird a hearing, explaining that jurisdiction
had been turned over to the family court five years prior
in connection with the custody dispute over T.F. After
further correspondence with Bird and her attorney,
DHS offered Bird an administrative hearing limited to
determining “whether DHS properly confirmed (i) abuse
of a minor and (ii) threat of abuse of a minor.” Bird rejected
this hearing, deeming the evidentiary standard impossible
to meet. In a letter dated May 14, 2013, Bird’s attorney
indicated to DHS that Bird would “proceed with litigation”
if she was not removed from the registry.
C.

Procedural Background

In July 2015, Bird filed a complaint in the First Circuit
Court, State of Hawai‘i, seeking both injunctive and
monetary relief against the State of Hawai‘i, DHS and
various state officials, in both their official and individual
capacities. She alleged violations of her state constitutional
right to due process and her federal constitutional rights,
a claim brought under 42 U.S.C. § 1983.4 The defendants
3. Bird was given official notice that she had been placed on
the registry for the first time in September 2012 when DHS mailed
and emailed her a “Notice to Perpetrator.”
4. Bird’s complaint does not actually specify which constitutional
rights the State violated. Bird’s parallel state constitutional claim,
however, focuses on a violation of due process, and the injunctive
relief that Bird seeks under her § 1983 claim would require the
State to “provide immediate notice to all individuals who have been
reported to the Registry” and “provide procedures for previously

13a
Appendix A
timely removed the action to federal court, and sought
summary judgment on the ground that Bird’s claims fail as
a matter of law. At the hearing on the motion, the district
court raised sua sponte the issue of whether Bird’s § 1983
claim is barred by the applicable statute of limitations. In
response, Bird’s attorney requested leave to amend the
complaint.
After supplemental briefing, the district court granted
the defendants’ motion for summary judgment, finding
that Bird’s § 1983 claim was untimely. The court concluded
that a two-year statute of limitations applies to Bird’s
§ 1983 claim, and that her claim had accrued “at the very
latest—by May 2013, more than two years before Bird
filed her July 20, 2015 Complaint.” The court rejected
Bird’s argument that her complaint was protected by the
continuing violation doctrine and denied Bird leave to
amend. Having dismissed Bird’s § 1983 claim, the court
declined to exercise supplemental jurisdiction over Bird’s
remaining state law claim, and remanded the case to state
court. This appeal followed. 5
II. DISCUSSION
Because 42 U.S.C. § 1983 does not contain its own
statute of limitations, “[a]ctions brought pursuant to 42
U.S.C. § 1983 are governed by the forum state’s statute of
reported individuals to seek to correct false reports.” Thus, Bird’s
claim is most aptly characterized as a procedural due process claim.

5. We review de novo the district court’s conclusion that a claim
is barred by a statute of limitations. Avila v. Spokane Sch. Dist. 81,
852 F.3d 936, 939 (9th Cir. 2017).

14a
Appendix A
limitations for personal injury actions.” Knox v. Davis, 260
F.3d 1009, 1012-13 (9th Cir. 2001) (citing Wilson v. Garcia,
471 U.S. 261, 276, 105 S. Ct. 1938, 85 L. Ed. 2d 254 (1985)).
In Hawai‘i, the statute of limitations for personal injury
actions is two years. See Haw. Rev. Stat. § 657-7.
Here, the parties disagree over when the statute
of limitations commenced to run. “Although state law
determines the length of the limitations period, federal
law determines when a civil rights claim accrues.” Knox,
260 F.3d at 1013 (quoting Morales v. City of Los Angeles,
214 F.3d 1151, 1153-54 (9th Cir. 2000)). Under federal law,
the “discovery rule” typically governs the accrual of § 1983
claims so that “a claim accrues when the plaintiff knows
or has reason to know of the injury which is the basis of
the action.” Id. (quoting TwoRivers v. Lewis, 174 F.3d 987,
992 (9th Cir. 1999)).
Because Bird learned in June 2012 that she had been
placed on the CCAR, requested and was denied a hearing
that fall, rejected a proffered hearing in February 2013,
and then sent a letter in May 2013 to DHS threatening to
“proceed with litigation,” the district court concluded that
Bird was aware that she had been placed on the registry,
felt this placement was unjustified, and was contemplating
her legal options “at the very latest” by May 2013.
Bird does not seriously dispute that she had knowledge
of the injury giving rise to her claims by May 2013.
Instead, she raises two arguments against applying the
normal discovery rule of accrual. First, Bird argues that
“[w]here a plaintiff challenges the constitutionality of a

15a
Appendix A
statutory or regulatory scheme, the plaintiff’s claim does
not accrue until the offending law is repealed.” Second,
Bird argues that her complaint alleges a “continuing
violation”—an exception to the usual discovery rule of
accrual. Because neither argument prevails, we conclude
that the normal discovery rule of accrual applies. We agree
with the district court’s conclusion that Bird knew of her
injury no later than May 2013, and affirm the district
court’s order dismissing Bird’s complaint as time-barred.
A
Bird first contends that a facial challenge to an
allegedly unconstitutional statute is exempt from the
traditional rules of accrual. More specifically, Bird asserts
that a claim seeking “injunctive relief to invalidate an
[ongoing] unconstitutional statutory and regulatory
scheme” does not accrue until the statute is repealed. In
essence, Bird’s proposed rule would mean that a person
who has been harmed by an allegedly unconstitutional
statute can bring suit at any time so long as the statute
remains in operation.
Bird acknowledges that “[t]he Ninth Circuit has not yet
addressed” the issue, and relies on several out-of-circuit
cases to support her position. First, Bird points to Virginia
Hospital Ass’n v. Baliles, 868 F.2d 653, 656 (4th Cir. 1989)
(“VHA”), where the plaintiffs—a nonprofit association
of hospitals and other healthcare providers—sought to
enjoin the procedures that Virginia used to determine
Medicare reimbursements as violative of the Medicaid
Act, 42 U.S.C. § 1396 et seq., and the due process clause,

16a
Appendix A
U.S. Const. amend. XIV. When the defendants argued that
the plaintiffs’ claim was barred by the applicable statute
of limitations, the district court concluded that “VHA
had alleged an ongoing constitutional violation, and . . .
the statute [of limitations] would not have begun to run
until the violation ended.” Id. at 663. The Fourth Circuit
agreed, concluding that “[t]he continued enforcement of
an unconstitutional statute cannot be insulated by the
statute of limitations.” Id. (alteration in original). Bird
highlights the same language in Kuhnle Brothers, Inc. v.
County of Geauga, 103 F.3d 516, 518, 522 (6th Cir. 1997),
where the Sixth Circuit quoted VHA’s assertion that
“[t]he continued enforcement of an unconstitutional statute
cannot be insulated by the statute of limitations” and
concluded that a trucking company’s challenge to a county
resolution that banned through traffic on certain roads
was not time-barred.6
Bird’s reliance on this language in VHA and Kuhnle
exceeds the context of both cases. In both VHA and
Kuhnle, the defendants had argued that the plaintiff’s
facial challenges had accrued when the statute was enacted
as opposed to when the statute was enforced against
the plaintiff. See Kuhnle, 103 F.3d at 522 (explaining
that a statute “does not become immunized from legal
challenge for all time merely because no one challenges
it within two years of its enactment”); VHA, 868 F.2d at
663 (explaining that the parties agreed that VHA’s cause
of action accrued “when Virginia enacted its current
6. The Kuhnle court’s discussion relies primarily on the
continuing violations doctrine, see 103 F.3d at 520-23, and is discussed
below in Part II.B.

17a
Appendix A
reimbursement plan”). Faced with the unsavory prospect
of denying recovery to plaintiffs who had actually been
injured within the limitations period merely because the
statute had been enacted outside the limitations period,
the courts responded by allowing the suit to proceed.
Thus, VHA and Kuhnle did nothing more than bring the
Fourth and Sixth Circuits into alignment with our own
view that a facial challenge to a statute generally accrues
when “the statute is enforced—in other words, [when] it
is applied.” Levald, Inc. v. City of Palm Desert, 998 F.2d
680, 688 (9th Cir. 1993).
Although the courts used broader language in
reaching their holdings, see Kuhnle, 103 F.3d at 522; VHA,
868 F.2d at 663, we do not believe the cases stand for the
broad proposition advocated by Bird. Bird’s argument
goes far beyond the actual outcomes in both cases; here,
Bird argues that her claim did not accrue at the time of
her injury, but rather continues ad infinitum until the
statute is repealed. Although Bird frames her argument
in terms of accrual, such a position would essentially
“nullify all statutes of limitations with respect to statutory
challenges.” VHA, 868 F.2d at 663.
Bird cites only one case that arguably supports such
a broad definition of accrual. In Tearpock-Martini v.
Borough of Shickshinny, 756 F.3d 232, 234 (3d Cir. 2014),
the plaintiff brought a § 1983 suit to enjoin a religious sign
that the municipality approved to be installed on public
grounds near the plaintiff’s property. While the plaintiff
conceded that a time period greater than the statutory
limitations period had elapsed since the sign was installed,

18a
Appendix A
she argued that her claims were nevertheless timely under
the continuing violations doctrine. Id. at 236. The Third
Circuit rejected application of the continuing violations
doctrine—a holding discussed in greater detail in Part
II.B, infra—and instead considered whether the plaintiff’s
claims were entirely exempt from the traditional statute
of limitations. Id. at 237-40. The court first concluded
that a federal court should apply the state-law statute of
limitations to a § 1983 claim “only if it is not ‘inconsistent
with the Constitution and laws of the United States.’” Id.
at 238 (quoting Burnett v. Grattan, 468 U.S. 42, 47-48, 104
S. Ct. 2924, 82 L. Ed. 2d 36 (1984)). The court went on to
“consider the significance of the federal rights implicated
by an Establishment Clause claim” and concluded
that “the traditional rationales justifying a limitations
period . . . simply have no persuasive force in this context.”
Id. at 238-39.
Even if this general exemption from the statute
of limitations is justified in the Establishment Clause
context—a question that we have not decided, see
Maldonado v. Harris, 370 F.3d 945, 955-56 (9th Cir. 2004)
(“[W]hether a statute of limitations for § 1983 actions can
bar a facial challenge under the First Amendment to a
state statute appears to be a question that has not been
conclusively resolved by any Circuit court . . . but we need
not resolve the . . . question here . . . .”), and which is not
before us today—such a departure from the discovery rule
of accrual is not warranted here. The court in TearpockMartini expressly limited its holding to the “federal
rights implicated by an Establishment Clause claim.”
756 F.3d at 238. Here, Bird asserts a due process claim

19a
Appendix A
and the “traditional rationales justifying a limitations
period—’to protect defendants against stale or unduly
delayed claims,’ ‘facilitat[e] the administration of claims,’
and ‘promot[e] judicial efficiency’”—are applicable to a
due process claim. Id. at 238-39 (alterations in original).
Unlike “a still-existing monument that communicates
anew an allegedly unconstitutional endorsement of
religion by the government each time it is viewed,” Id. at
239, a due process violation is a discrete event for which
evidence and memory will fade over time. The traditional
interests of protecting defendants and facilitating the
administration of such claims are thus applicable to a due
process claim and justify enforcing a limitations period
through the discovery rule of accrual. Although enforcing
the statute of limitations here will make Bird’s alleged
losses permanent, such a cost is present in every case
where a plaintiff’s claim is denied on statute of limitations
grounds and is alone insufficient to justify departing from
the normal discovery rule of accrual.
Moreover, Bird’s assertion that applying the discovery
rule of accrual to her case will forever immunize an
unconstitutional state statute is untrue. The only way for
the state to immunize itself from further suit by future
plaintiffs would be to stop enforcing its statute. As long
as Hawai‘i continues to enforce its statute, it is subject to
a facial challenge by every individual it affects. Enforcing
the statute of limitations in the case of a facial challenge to
an allegedly unconstitutional statute, thus, does not render
the statute immune from challenge; it merely requires
that such challenges be brought in a timely manner. For
these reasons, we decline to adopt Bird’s proposed rule

20a
Appendix A
exempting claims seeking “injunctive relief to invalidate
an [ongoing] unconstitutional statutory . . . scheme” from
the discovery rule of accrual.
B
We next consider whether Bird’s claim qualifies as a
continuing violation. The continuing violations doctrine
functions as an exception to the discovery rule of accrual
“allowing a plaintiff to seek relief for events outside of the
limitations period.” Knox, 260 F.3d at 1013. Although the
continuing violations doctrine is most frequently seen in
the context of employment discrimination suits, we have
held that the continuing violations doctrine also applies
to § 1983 claims. See id. (“The continuing violation theory
applies to § 1983 actions.”); Cherosky v. Henderson, 330
F.3d 1243, 1246 n.3 (9th Cir. 2003) (“[T]he Supreme
Court’s analysis of the continuing violations doctrine is
not limited to Title VII actions. It applies with equal force
to . . . actions arising under other civil rights laws.”).
“The doctrine of continuing violations . . . is actually
a conglomeration of several different ideas,” Williams
v. Owens-Illinois, Inc., 665 F.2d 918, 924 (9th Cir. 1982)
(internal quotation omitted), the essence of which is that
“when a defendant’s conduct is part of a continuing practice,
an action is timely so long as the last act evidencing the
continuing practice falls within the limitations period,”
Tearpock-Martini, 756 F.3d at 236 (quoting Brenner v.
Local 514, United Bhd. of Carpenters & Joiners of Am.,
927 F.2d 1283, 1295 (3d Cir. 1991)). We have recognized
two applications of the continuing violations doctrine:

21a
Appendix A
first, to “a series of related acts, one or more of which
falls within the limitations period,” and second, to “the
maintenance of a discriminatory system both before and
during [the limitations] period.” Gutowsky v. County of
Placer, 108 F.3d 256, 259 (9th Cir. 1997) (quoting Green
v. L.A. Cty. Superintendent of Schs., 883 F.2d 1472, 1480
(9th Cir. 1989)).
Prior to 2002, we applied the serial acts branch of
the continuing violations doctrine when the defendant
committed a series of acts directed against a single
plaintiff. See Morgan v. AMTRAK, 232 F.3d 1008 (9th
Cir. 2000) (“Morgan I”); Kyle Graham, The Continuing
Violations Doctrine, 43 Gonz. L. Rev. 271, 304 (2008).
As long as the plaintiff could show that acts preceding
the limitations period were “sufficiently related” to acts
that occurred within the limitations period, the plaintiff
could recover damages for all of the related acts—even
those that would otherwise be barred by the statute of
limitations. See Morgan I, 232 F.3d at 1016. In 2002,
however, the Supreme Court reversed our decision
in Morgan I and limited the serial acts branch of the
continuing violations doctrine. AMTRAK v. Morgan, 536
U.S. 101, 114, 122 S. Ct. 2061, 153 L. Ed. 2d 106 (2002)
(“Morgan II”). The Court held that “discrete . . . acts are
not actionable if time barred, even when they are related
to acts alleged in timely filed charges” because “[e]ach
discrete . . . act starts a new clock for filing charges
alleging that act.” Id. at 113.7
7. The Court carved out one exception for hostile work
environment claims, because “[s]uch claims are based on the
cumulative effect of individual acts” that “cannot be said to occur
on any particular day.” Morgan II, 536 U.S. at 115-17.

22a
Appendix A
Although Morgan II applied Title VII of the Civil
Rights Act of 1964, we have relied on Morgan II to
abrogate the serial acts branch of the continuing violations
doctrine for § 1983 claims as well. See Carpinteria Valley
Farms, Ltd. v. County of Santa Barbara, 344 F.3d 822, 829
(9th Cir. 2003) (“Although Morgan was a Title VII case . . .
we have applied Morgan to bar § 1983 claims predicated
on discrete time-barred acts, not-withstanding that those
acts are related to timely-filed claims.”); Cherosky, 330
F.3d at 1246 n.3 (concluding that the Supreme Court’s
holding in Morgan II “applies with equal force . . . to
actions arising under other civil rights laws”).
Unlike the serial acts branch, the systematic branch
does not require the plaintiff to allege specific acts
that occurred within the statute of limitations period.
Originally, the systematic branch allowed the plaintiff
to recover for acts that occurred prior to the limitations
period as long as (1) those acts were conducted pursuant
to a policy or practice that remained in effect within the
statute of limitations period and (2) the plaintiff remained
subject or susceptible to the policy within the limitations
period. See Gutowsky, 108 F.3d at 260 (applying the
systematic branch of the continuing violations doctrine
where the plaintiff’s “specific examples” of discrimination
occurred prior to the limitations period, but where the
“widespread policy and practices of discrimination of
which [the plaintiff] complain[ed] continued every day
of her employment, including days that fall within the
limitation period”); Graham, 43 Gonz. L. Rev. at 303-04.
The theory behind the systematic branch was that every
day the plaintiff was subject to the policy or practice

23a
Appendix A
“constituted a new violation” sufficient to extend the
statute of limitations period. See Reed v. Lockheed
Aircraft Corp., 613 F.2d 757, 759-60 (9th Cir. 1980)
(“[E]ach day without promotion constituted a new violation
of Title VII . . . .”).
Although the Supreme Court in Morgan II addressed
only the serial acts branch of the continuing violations
doctrine, see 536 U.S. at 115 & n.9, we have applied
Morgan II to abrogate the systematic branch of the
continuing violations doctrine as well. For example, in
Lyons v. England, 307 F.3d 1092, 1107 (9th Cir. 2002),
we reasoned from Morgan II that a plaintiff’s “assertion
that [a] series of discrete acts flows from a company-wide,
or systematic, discriminatory practice will not succeed
in establishing the employer’s liability for acts occurring
outside the limitations period.” Similarly, in Cherosky, the
plaintiffs sought to avoid Morgan II’s unfavorable holding
by arguing under the systematic branch of the continuing
violations doctrine; the plaintiffs contended that they
could still recover damages for acts of employment
discrimination that had occurred prior to the statute of
limitations period as long as those acts had been conducted
pursuant to a discriminatory company policy. 330 F.3d at
1246. We rejected that argument, concluding instead that
“[t]he allegation that . . . discrete acts were undertaken
pursuant to a discriminatory policy does not extend the
statutory limitations period.” 330 F.3d at 1247.
Thus, after Morgan II, little remains of the continuing
violations doctrine. Except for a limited exception for
hostile work environment claims—not at issue here—the

24a
Appendix A
serial acts branch is virtually non-existent. Moreover,
while we have left room for the systematic branch to
apply to class-wide pattern-or-practice claims, see Lyons,
307 F.3d at 1107 n.8 (emphasizing that its holding did
not “suggest that after Morgan the same plaintiff would
be precluded from bringing a class-wide pattern-orpractice claim”), we have consistently refused to apply the
systematic branch to rescue individualized claims that are
otherwise time-barred.
In this light, the district court’s conclusion that Bird
is time-barred from seeking damages for her placement
on the CCAR in 2007 is correct. Because “the violation
Bird alleges is the placement of her name on the Registry
without constitutionally required due process,” she
has brought only an individualized claim. 8 As such, the
systematic branch of the continuing violations doctrine is
inapplicable here, and the discovery rule of accrual applies.
Bird raises several arguments to the contrary. First,
she likens her case to that of Kuhnle, where the Seventh
Circuit held that a county resolution which barred
the plaintiff from using certain roads for truck travel
“deprived [the plaintiff] of liberty interests . . . created by
a fundamental constitutional right to intrastate travel . . .
every day that it remained in effect” and thus constituted
a continuing violation. 103 F.3d at 521-22. Bird argues
8. Bird did style her complaint as a class action, but “there
has been no class certification granted, or even sought” and “the
parties have identified no potential class member plaintiffs.” At oral
argument, Bird’s counsel conceded that Bird had not pursued her
class action claim.

25a
Appendix A
that “[s]imilar to the plaintiff in Kuhnle . . . [her] § 1983
claim arises from a continued deprivation of liberty
interests caused by an unconstitutional rule or statute.”
This argument is, in essence, an attempt to recast Bird’s
claim as a substantive due process claim for deprivation
of liberty interests in working with and adopting children.
Bird’s case, however, is distinguishable from that of
Kuhnle. In Kuhnle, the resolution directly forbade the
plaintiff from driving on certain roads, thereby depriving
him every day of his “fundamental constitutional right
to intrastate travel.” 103 F.3d at 521. By comparison,
the deprivation of liberty that Bird continues to suffer is
best understood as the “continuing impact from [a] past
violation[].” Williams, 665 F.2d at 924 (quoting Reed, 613
F.2d at 760); see Del. State Coll. v. Ricks, 449 U.S. 250,
252-54, 258, 101 S. Ct. 498, 66 L. Ed. 2d 431 (1980) (holding
that a professor’s eventual termination was merely the
continuing effect of the original decision to deny tenure
and not a new violation); Knox, 260 F.3d at 1013 (holding
that repeated denials of prison visitation rights did not
constitute a continuing due process violation because
each of the subsequent denials merely implemented the
original suspension and did not represent an independent
violation). Although Bird’s injuries resulting from the 2007
act of placing her on the CCAR continue to the present day,
continuing effect is insufficient to constitute a continuing
violation. See Williams, 665 F.2d at 924 (“[C]ontinuing
impact from past violations is not actionable.” (quoting
Reed, 613 F.2d at 760)).
Second, Bird argues that her claim is not confined to
the denial of pre-deprivation process; rather, Bird believes

26a
Appendix A
that the continual lack of a post-deprivation process by
which she can challenge her placement on the CCAR
constitutes an ongoing deprivation of due process. Bird is
unable to identify, however, any specific instance within
the limitations period where she sought and was denied
post-deprivation process. See Pouncil v. Tilton, 704 F.3d
568, 581 (9th Cir. 2012) (holding that constitutional and
statutory claims for religious discrimination were not
barred by the statute of limitations where the defendant
allegedly committed an independently wrongful, discrete
act within the limitations period, even if the discrete act
was related to a preexisting policy of which the plaintiff
was aware and subject to outside the limitations period).
The only instance Bird has identified where she sought
and was denied a post-deprivation hearing occurred prior
to May 2013.
***
Because Bird has alleged only individualized
claims for deprivation of procedural due process, the
normal discovery rule of accrual applies. Based on the
correspondence between Bird and DHS, we agree with
the district court that Bird had knowledge of the injury
giving rise to her claims by May 2013. Accordingly, her
suit, filed in July 2015, was outside the two-year statute
of limitations. Because “the complaint would not [have
been] saved by any amendment,” Carvalho v. Equifax
Info. Servs., LLC, 629 F.3d 876, 893 (9th Cir. 2010) (quoting
Leadsinger, Inc. v. BMG Music Publ’g, 512 F.3d 522, 532
(9th Cir. 2008)), the district court did not err in denying
Bird leave to amend.

27a
Appendix A
III. CONCLUSION
We AFFIRM the judgment of the district court.
BYBEE, Circuit Judge, concurring:
I fully concur in the per curiam opinion of the court
that Ms. Bird’s complaint is barred by the applicable
statute of limitations. I regret that result, however, and
write separately because I fear that a great injustice
may have been done. Ms. Bird alleges that the State of
Hawai‘i has violated her Fourteenth Amendment right to
procedural due process when, without giving her notice
and an opportunity for a hearing, the state placed her
on its Central Child Abuse Registry (“CCAR”). Were
we permitted to reach the merits of her argument, Ms.
Bird has assuredly stated a plausible due process claim.
Regrettably, if Ms. Bird was erroneously listed on the
CCAR, she may suffer the effects of the state’s error for
the remainder of her life.
We analyze procedural due process claims in two
familiar steps: we first ask “whether there exists a liberty
or property interest which has been interfered with by
the State.” Ky. Dep’t of Corr. v. Thompson, 490 U.S. 454,
460, 109 S. Ct. 1904, 104 L. Ed. 2d 506 (1989). We then ask
“whether the procedures attendant upon that deprivation
were constitutionally sufficient.” Id.
Unfortunately, this is not a case of first impression.
We previously addressed the adequacy of state procedures
for listing and maintaining names on child abuse

28a
Appendix A
registries in Humphries v. County of Los Angeles, 554
F.3d 1170 (9th Cir. 2009), overruled on other grounds by
Los Angeles County v. Humphries, 562 U.S. 29, 131 S.
Ct. 447, 178 L. Ed. 2d 460 (2010). There, we addressed
a challenge to California’s Child Abuse Central Index
(“CACI”) and held at step one of the due process inquiry
that an individual’s liberty interest has been “interfered
with by the State” where “a state statute creates both a
stigma and a tangible burden on an individual’s ability
to obtain a right or status recognized by state law.” 554
F.3d at 1185, 1188. We recognized that “being labeled a
child abuser by being placed on [a child abuse registry]
is ‘unquestionably stigmatizing.’” Id. at 1186. Moreover,
“a tangible burden . . . exists where the plaintiff can show
that, as a practical matter, the law creates a framework
under which agencies reflexively check the stigmatizing
listing—whether by internal regulation or custom—prior
to conferring a legal right or benefit.” Id. at 1188. In this
case, there is no question that by listing Ms. Bird on
its CCAR—irrespective of whether she is “confirmed”
or “not confirmed”—Hawai‘i has placed a stigmatizing
label on Ms. Bird. Indeed, there is perhaps no name
more deserving of our opprobrium than to be called a
child abuser—or, as Hawai‘i euphemistically refers to
them: a “perpetrator” or “maltreater.” Haw. Admin. R.
§ 17-1610-11(c).
There are real consequences for those who find
themselves on a state registry. State-created child abuse
registries form an organic network of accusations from
which consequences flow: those listed may be denied the
privilege of teaching or working with children, adopting,

29a
Appendix A
fostering, and coaching youth sports or other activities.
See Wright v. O’Day, 706 F.3d 769, 771 (6th Cir. 2013)
(describing how Tennessee law prohibits people listed on
the state’s child abuse registry from working in childcare agencies, child-care programs, and adult-daycare
centers); Humphries, 554 F.3d at 1177-78 (describing
consequences of being listed on California’s CACI);
Behrens v. Regier, 422 F.3d 1255, 1257 (11th Cir. 2005)
(describing how plaintiff was unable to adopt another child
after inaccurate listing on Florida’s child abuse registry);
Dupuy v. Samuels, 397 F.3d 493, 497-98 (7th Cir. 2005)
(describing how Illinois law requires licensed facilities in
childcare to check the state’s child abuse registry).
When a state places legal disabilities on its citizens,
we ask “whether the procedures attendant upon that
deprivation were constitutionally sufficient.” See
Thompson, 490 U.S. at 460. The answer here is a
resounding “NO.” Hawai‘i offers little process—prelisting or post-listing—for persons it lists on its CCAR.
In the same provision that creates the CCAR, Hawai‘i
requires DHS to notify police and prosecutors of any
reports DHS receives. Haw. Rev. Stat. § 350-2(a), (b).
Although nothing in the statute requires DHS to notify
the individual who has been branded a perpetrator or
maltreater, DHS’s regulations require it to give notice of
the listing and the right to an administrative appeal. Haw.
Admin. R. § 17-1610-11(c). In this case, however, DHS did
not follow its regulations; Ms. Bird received no notice. She
had no way of knowing that she was on the registry until
years later, after her ex-husband had been convicted of
killing their daughter, Hawai‘i family court restored her

30a
Appendix A
older daughter to her custody, she had left Hawai‘i for
her family’s home in Tennessee, she remarried, and she
and her new husband sough to adopt a special-needs child
from a third-world country. By the time Ms. Bird learned
that she was on Hawai‘i’s CCAR, the damage had been
done. She was disqualified by Tennessee from adoption
(and probably many other things she hadn’t figured out
yet), and her only recourse was to go back to Hawai‘i five
years after the incident and try to persuade an agency
that didn’t want to deal with her to give her a hearing. In
the end, DHS begrudgingly offered her “an administrative
hearing for the sole purpose of deciding whether DHS
properly confirmed (i) abuse of a minor and (ii) threat of
abuse of a minor.”
We have seen this bad movie before. In Humphries,
we concluded that California’s procedures for listing and
maintaining individuals on the CACI were constitutionally
deficient because they created a high likelihood that
innocent names would remain on the registry. We first
emphasized that the statutory standard for inclusion
on the CACI was “a very low threshold” that created a
high likelihood of “false positives.” 554 F.3d at 1195. We
observed that California law essentially “reverse[d] . . . the
presumption of innocence in our criminal justice system:
the accused [was] presumed to be a child abuser and listed
[on the registry] unless the investigator [affirmatively]
determine[d] that the report [was] false, improbable,
or accidental.” Id. The danger of an erroneous listing
was further compounded by the lack of any statutory
procedure by which an individual could challenge his or
her inclusion on the CACI. Id. at 1195-1200. Rather than

31a
Appendix A
decide for ourselves what procedures California should
adopt, we ordered California to “provide ‘some kind of
hearing’ by which [an accused individual] can challenge
his inclusion.” Id. at 1201.
Hawai‘i’s procedures for creating and maintaining
its registry perpetuate some of the same problems we
identified in Humphries. First, Hawai‘i regulations
require that even “not confirmed” reports of child
abuse be listed on the CCAR, thereby creating a
high likelihood of “false positives.” Haw. Admin. R.
§ 17-1610-19(a)(1)(A).1 The danger of erroneous listings
in the CCAR is magnified by inadequate procedures by
which an individual can challenge his or her inclusion
in the CCAR. Unlike the statutory scheme at issue in
Humphries, Hawai‘i regulations do require notice and
do allow for administrative review of CCAR listings in
some circumstances. At least one of the two means for
review occurs on DHS’s initiative and can be terminated
on DHS’s initiative. See Haw. Rev. Stat. § 350-2(d)(1). If
DHS petitions for a separate family court proceeding in
which it claims custody of the listed individual’s child, the
listed individual is not permitted to seek administrative
review of his or her registry listing. See Haw. Admin. R.
§ 17-1610-12. Instead, the listed individual must prevail
at an adjudicatory hearing before the family court can
expunge the report. Haw. Rev. Stat. § 350-2(d)(2).
At first blush, this statutory scheme appears more
protective than the scheme at issue in Humphries, where
listed individuals were offered neither administrative
review nor a court hearing capable of expunging the

32a
Appendix A
listing. Ms. Bird’s unfortunate situation, however,
highlights a glaring hole in Hawai‘i’s regulations: In
cases where DHS chooses to return a child to his or her
parents rather than pursue the family court proceeding
to the adjudicatory phase, listed individuals are denied
access to both an administrative hearing and a court
adjudication. See Haw. Rev. Stat. § 350-2(d); Haw. Admin. R.
§ 17-1610-12(c). In other words, under Hawai‘i procedures,
DHS can both return a child to the parents and keep the
parent’s names on the CCAR. In that circumstance, the
only way the parent can get a hearing on the CCAR listing
is to decline the opportunity to get the child back and
pursue litigation in the family court to a full adjudication.
This makes no sense. The parents who settle with DHS
and thus forego adjudication get their child back, but may
be barred forever from teaching school or coaching Little
League. See, e.g., Humphries, 554 F.3d at 1183 & n.9.
Persons such as Ms. Bird have no recourse for expunging
their names from the CCAR, except to file a civil rights
action under 42 U.S.C. § 1983.
The state suggests that the hole in its regulations, by
which certain individuals are offered neither administrative
review nor a court adjudication, is immaterial because
parents who are listed on the CCAR should know better
1. I recognize that on May 29, 2017, the statute governing
listings on the Registry, Haw. Rev. Stat. § 350-2(d), was amended so
that “not confirmed” reports of child abuse may be expunged from
the CCAR. See 2017 Haw. Laws Act 16 (H.B. 1099) (May 18, 2017). As
our per curiam opinion notes, the regulations governing listings in
the CCAR, however, still require that “not confirmed” reports remain
on the CCAR. Haw. Admin. R. § 17-1610-19; see Panel Op. at 6 n.2.

33a
Appendix A
than to regain custody of their children from DHS without
enduring a court adjudication. According to the State, the
onus lies on the parents to insist that the district court
proceed to an adjudication where it would otherwise be
unnecessary.
The flaw in the state’s procedures is compounded
in this case by the fact that it never told Ms. Bird she
was listed on the CCAR. The state’s position that it was,
nevertheless, Ms. Bird’s burden to insist on an adjudication
is just astounding. Even worse, the State argues that
the lack of notice in this case is also immaterial because
Ms. Bird was represented by counsel in the dependency
proceeding before the family court and thus should have
“just known” that she was listed on the CCAR and that the
only way for her to get off was to insist on proceeding to
an adjudicatory hearing in spite of the fact that DHS had
effectively mooted the family court proceeding by agreeing
that Bird’s daughter could be safely returned home.
I don’t understand how the State of Hawai‘i can
maintain such arguments with a straight face. Ms. Bird
was plainly denied due process of law. And, if the facts are
as she alleges them, not only was she denied notice and
an opportunity to contest her placement on the CCAR,
she was erroneously listed in the first place. The state
has twice wronged her: first, by listing her at all; second,
by denying her an opportunity to prove that she didn’t
deserve to be blacklisted.
Hawai‘i prevails here only because of a statute of
limitations. Statutes of limitations are important to the

34a
Appendix A
search for truth. They “‘promote justice by preventing
surprises through [plaintiffs’] revival of claims that have
been allowed to slumber until evidence has been lost,
memories have faded, and witnesses have disappeared.’”
CTS Corp. v. Waldburger, 573 U.S. 1, 8, 134 S. Ct. 2175, 189
L. Ed. 2d 62 (2014) (alteration in original) (quoting R.R.
Telegraphers v. Ry. Express Agency, Inc., 321 U.S. 342,
348-49, 64 S. Ct. 582, 88 L. Ed. 788 (1944)). The state gets
the benefit of that rule today, because Ms. Bird filed her
suit just outside the two-year statute of limitations. The
irony is that while Ms. Bird filed her suit just two months
late, she didn’t even learn of the CCAR—and her cause of
action—until five years after the state listed her. Hawai‘i
will not be compelled by law—at least not by us—to give
Ms. Bird an opportunity to show she doesn’t deserve to
be on its CCAR, but it can always choose to do the right
thing voluntarily. In any event, DHS should not interpret
our decision today as in any way condoning the blatantly
insufficient procedures by which it maintains Ms. Bird’s
name in its Central Child Abuse Registry.

35a
B the UNITED
Appendix B —Appendix
ORDER of
STATES DISTRICT COURT FOR THE DISTRICT
OF HAWAII, Filed April 24, 2017
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAI‘I
CIVIL NO. 15-00304 DKW-KJM
COURTNEY BIRD,
Plaintiff,
vs.
STATE OF HAWAII; THE DEPARTMENT OF
HUMAN SERVICES; DHS, SOCIAL SERVICES
DIVISION, CHILD WELFARE SERVICES
BRANCH; PANKAJ BHANOT1; JEFFREY R.
WOODLAND; DOE DEFENDANTS,
Defendants.
April 24, 2017, Decided
April 24, 2017, Filed
ORDER GRANTING IN PART DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT, DENYING
PLAINTIFF’S MOTION TO STRIKE, AND
REMANDING STATE LAW CLAIM
1. The Court substitutes as a Defendant the current
Department of Human Services (“DHS”) Director, Pankaj
Bhanot, in place of Rachel Wong, who held that title at the time
the Complaint was originally filed. Compl. ¶ 15; Fed. R. Civ. Proc.
(“FRCP”) 25(d).

36a
Appendix B
Approximately eight years after the death of her
infant daughter, an incident for which she disavows
responsibility, Plaintiff Courtney Bird filed the instant
lawsuit challenging her 2007 placement on the State’s
“central registry of reports of child abuse or neglect” (the
“Registry”). Compl. ¶ 1, ECF No. 1-1. The complaint, styled
as a class action, 2 seeks both injunctive and monetary
relief from Defendants for alleged constitutional violations
via 42 U.S.C. § 1983. 3 Compl. ¶¶ 6, 68-76. Initially filed
in state circuit court, Defendants removed this action on
August 6, 2015. Notice of Removal, ECF No. 1.
Before the Court are Defendants’ Motion for Summary
Judgment (“MSJ”), filed September 29, 2016 (ECF No.
24), and Plaintiff’s November 23, 2016 motion to strike
certain exhibits that Defendants provided in support of
their MSJ (ECF No. 39). For the reasons set forth below,
the Court GRANTS the MSJ as to Bird’s Section 1983
claim, DENIES Bird’s Motion to Strike, and REMANDS
Bird’s remaining state law claim back to state court.

2. On the record before it, the Court is unable to identify
anyone included in this purported class of “similarly situated”
individuals, and class certification has not been sought.
3. Bird names the listed Defendants because: DHS oversees
Child Welfare Services (“CWS”) and maintains the Registry
(Compl. ¶ 13); CWS is “responsible for expunging reports” of child
abuse/neglect (Compl. ¶ 14); Bhanot is the current DHS Director
who oversees DHS and CWS (Compl. ¶ 15); and Woodland is a
CWS supervisor (Compl. ¶ 16).

37a
Appendix B
BACKGROUND
I. 	Factual Background
On March 28, 2007, Plaintiff Courtney Bird, a Navy
wife living in the State of Hawai‘i (Compl. ¶ 11), returned
home from a mid-day dentist appointment to find her
then-husband, Petty Officer Second Class Frank Fontana
(“Fontana”) administering CPR to their infant daughter,
C.F. Compl. ¶¶ 24, 29-30; see also DHS Supervisor’s Status
Report, DHS Referral to Family Ct., Dec. 10, 2007, at
DHS 788, ECF No. 38-2 [hereinafter Status Report]. C.F.,
who was born only weeks earlier in February 2007, was
transported by ambulance to the Tripler Army Medical
Center where she died of cardiac arrest. Compl. ¶¶ 24,
30-31. On July 10, 2007, Fontana allegedly “confessed
to harming [C.F.] with actions that caused [her] death.”4
Status Report, at DHS 788; see also Compl. ¶¶ 38-39,
41. Fontana was reportedly charged with “First Degree
Murder, Assault and Falsifying Statements.” Status
Report, at DHS 788.
On November 27, 2007, an agent of the Naval Criminal
Investigative Service (“NCIS”) informed DHS that “[Bird]
is not a suspect and the investigation is on-going.” Status
Report, at DHS 788 (emphasis in original). Nonetheless,
Bird “was [allegedly] told by [State] authorities that she
needed to allow DHS to have temporary custody” of her
4. Details surrounding Fontana’s actions and C.F.’s injuries
can be found in the Infant Autopsy Report, Concise Statement
of Facts in Supp. of MSJ, Ex. 17, at DHS 1428, ECF No. 37-13.

38a
Appendix B
then-two-year-old daughter, T.F.; and Bird claims that
“[s]he agreed because she was so upset [after C.F.’s death]
that she understood the need for help at a time of such
profound grief.” Compl. ¶ 33. According to the Complaint,
“[u]nknown to [Bird], the moment the police were notified
about [C.F.’s March 28, 2007] death, [Fontana]’s name, as
well as [Bird’s] own name, were reported to the Registry
without regard to innocence or guilt, and DHS opened an
investigation.” Compl. ¶ 35.
When a report of possible abuse is submitted to DHS,
the Hawaii ‘Administrative Rules (“HAR”) require DHS
to record it in the Registry (HAR § 17-1610-18) and conduct
an investigation. Compl. ¶ 18. In order to have a report
expunged, a parent may file an administrative appeal on
the grounds that the report was “frivolous or made in bad
faith.” Compl. ¶ 21 (citing Haw. Rev. Stat. (“HRS”) § 3502(d)(1)). Alternatively, if the DHS initiates a family court
proceeding, the parent can have the report expunged if
he or she prevails on the merits, Compl. ¶ 23 (citing HRS
§ 350-2(d)(2)). According to Bird, “[i]f the family court
proceeding is dropped and never reaches an adjudication
on the merits, the report is permanent and the parent
has no recourse.” Compl. ¶ 62. Bird also contends that,
although HAR § 17-1610-11 requires DHS to inform the
parent when an investigation is complete, “DHS routinely
failed to follow its own regulation and give the required
notice.” Compl. ¶ 20. To that end, Bird complains that
Defendant Woodland “informed [her] that DHS does not
provide notice when listing individuals in the child abuse
registry.” Compl. ¶ 16. “Instead,” Bird continues, “DHS
did its internal investigation and confirmed the report as

39a
Appendix B
to both [Bird] and [Fontana],” and then filed a petition in
Family Court for custody of T.F. Compl. ¶ 36.
While the NCIS conducted its criminal investigation
into C.F.’s death, DHS began investigating possible child
abuse and/or neglect in order to secure T.F.’s safety. After
months of home checks, supervised visits, and evaluations
by various medical and social work professionals, the
Family Court eventually issued an order granting Bird
custody of T.F., and authorizing them “to leave Hawaii
[for Tennessee] on the conditions that Tennessee DHS
approves the . . . placement, and Tennessee DHS puts in
writing that services for [Bird] and [T.F.] will be in place
when mother and daughter arrive in Tennessee, and both
are received by the Court.” Orders Concerning Child
Protective Act (“CPA”), Dec. 12, 2007, Defs.’ Separate &
Concise Statement of Facts in Supp. of MSJ (“Concise
Facts in Supp.”), Ex. 22, at DHS 774, ECF No. 38-3. The
Family Court also found that “[t]he child/ren’s family
can provide a safe family home without the assistance
of a service plan,” revoking the prior order of family
supervision, and terminating its jurisdiction over the case.
Orders Concerning CPA, June 3, 2008, Concise Facts in
Supp., Ex. 23, at DHS 719, ECF No. 38-4.
Bird and T.F. subsequently moved to Tennessee and
rebuilt their lives:
37. Eventually, I was able to regain custody of
T.F. and I returned home to Tennessee to live
with my father. On June 3, 2008, I appeared
telephonically before the Family Court in

40a
Appendix B
Hawai‘i, where I learned that my case was
closed. At no point did the Court state that I
would be on the child abuse registry. As such,
I moved on with my life the best that I could.
38. In 2011, I married my current husband and
we had another child. Having the resources and
a loving home to provide, we made the decision
to adopt a child from Africa. Preferably, we
wanted to adopt an older child who was HIV
positive so that we could provide him or her with
the kind of medical and family care that they
were lacking in their current situation.
39. When my husband and I began the adoption
process [in Tennessee], we informed our friends
and family of our decision. We held fundraisers
to alleviate the adoption costs. My husband and
I made a non-refundable payment of $3,000 to
the adoption agency. In addition, we spent a
significant amount on fingerprints, background
checks, and psychological examinations.
40. My husband and I went through the
requisite home visits and consultations with
a social worker. I was honest with our case
worker and let her know what happened with
C.F. in Hawai‘i. She told me that it shouldn’t
be a problem.
41. However, when our social worker sent
background requests to the various states in

41a
Appendix B
which I have lived, Hawai‘i responded that I was
a confirmed perpetrator of child abuse. This
response made me ineligible to adopt.
Bird Decl. ¶¶ 37-42, ECF No. 43-1. Between Summer
2012 and Spring 2013, Bird communicated with various
DHS officials, sometimes via her attorney, regarding her
presence on the Registry, but their answers did not allow
the adoption to proceed.
II. 	Procedural Background
On July 20, 2015, Bird filed a class action Complaint
in the First Circuit Court, State of Hawai‘i alleging two
claims: (1) violation of a state constitutional right to due
process (“Count I”); and (2) violation of 42 U.S.C. § 1983
(“Count II”). See Compl., ECF No. 1-1. Defendants timely
removed the action to this Court based on Bird’s Section
1983 claim. Notice of Removal, ECF No. 1.
On September 29, 2016, Defendants filed their MSJ
(ECF No. 24) arguing that Bird’s claims fail as a matter
of law. On November 23, 2016, Bird concurrently filed
her opposition to the MSJ (ECF No. 42) and a motion to
strike thirteen exhibits Defendants filed in support of
their MSJ (ECF No. 39). Defendants then concurrently
filed their reply in support of the MSJ (ECF No. 49) and
their opposition to Bird’s Motion to Strike (ECF No. 50).
On December 9, 2016, Bird filed her reply in support of
the Motion to Strike (ECF No. 51).

42a
Appendix B
The Court heard both motions on December 21, 2016.
See Tr. of Proceedings, ECF No. 56. At the hearing, the
issue of whether Bird’s Section 1983 claim is barred by the
applicable statute of limitations was raised, and the Court
requested the parties to submit supplemental briefing on
the issue. See Entering Order, Dec. 21, 2016, ECF No.
54. The parties complied with that request on January
23, 2017 (ECF No. 61 (Bird)) and February 6, 2017 (ECF
No. 62 (Defendants)), respectively.
STANDARD OF REVIEW
Pursuant to FRCP 56(a), a party is entitled to
summary judgment “if the movant shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.”
When a motion for summary judgment is made and
adequately supported, the burden shifts to the party
opposing summary judgment “to demonstrate the
existence of a genuine dispute.” Kowalski v. Mommy Gina
Tuna Res., 574 F. Supp. 2d 1160, 1162 (D. Haw. 2008) (citing
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586-87, 106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986)).
To meet this burden, the non-moving party must do “more
than simply show that there is some metaphysical doubt
as to the material facts” and instead must “come forward
with specific facts showing that there is a genuine issue for
trial.” Matsushita Elec., 475 U.S. at 586-87 (citations and
internal quotation marks omitted). For, if no evidence can
be mustered to sustain the nonmoving party’s position, a
trial would be useless. See Kahumoku v. Titan Mar., LLC,
486 F. Supp. 2d 1144, 1150 (D. Haw. 2007) (explaining that

43a
Appendix B
one of the primary purposes of summary judgment is to
“isolate and dispose of factually unsupported claims or
defenses”)(quoting Celotex Corp. v. Catrett, 477 U.S. 317,
323-24, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986)).
With these basic principles in mind, the Court turns
to the merits of the motions at issue.
DISCUSSION
I. 	Defendants Are Entitled To Summary Judgment
On Bird’s Section 1983 Claim
Bird seeks relief under 42 U.S.C. Section 1983 for
alleged violations of her constitutional right to due process.
Among other things, Bird asserts that the State should
not have placed her on the Registry in 2007 because:
(i) Fontana was the one solely responsible for C.F.’s
injuries, (ii) an evidentiary hearing should have first
been conducted, and (iii) at least concurrent notice of her
placement should have been provided. After viewing the
evidence in the light most favorable to Bird, the party
opposing summary judgment, see Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255, 106 S. Ct. 2505, 91 L. Ed. 2d
202 (1986) (citing Adickes v. S.H. Kress & Co., 398 U.S. 144,
158-59, 90 S. Ct. 1598, 26 L. Ed. 2d 142 (1970)), the Court
concludes that Bird’s Section 1983 claim is time-barred.
Under 42 U.S.C. Section 1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,

44a
Appendix B
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress.
Section 1983 “is not itself a source of substantive rights,
but merely provides a method for vindicating federal
rights elsewhere conferred.” Graham v. Connor, 490
U.S. 386, 393-94, 109 S. Ct. 1865, 104 L. Ed. 2d 443 (1989)
(quoting Baker v. McCollan, 443 U.S. 137, 144 n.3, 99
S. Ct. 2689, 61 L. Ed. 2d 433 (1979)) (internal quotation
marks omitted). The purpose of Section 1983 is to deter
state actors from using “the badge of their authority to
deprive individuals of their federally guaranteed rights
and to provide relief to victims if such deterrence fails.”
Wyatt v. Cole, 504 U.S. 158, 161, 112 S. Ct. 1827, 118 L.
Ed. 2d 504 (1992) (citing Carey v. Piphus, 435 U.S. 247,
254-57, 98 S. Ct. 1042, 55 L. Ed. 2d 252 (1978)) (explaining
that Section 1983 “was intended to ‘[create] a species
of tort liability’ in favor of persons who are deprived of
‘rights, privileges, or immunities secured’ to them by the
Constitution” (citations omitted)).
A.

Resolution Of Bird’s Section 1983 Claim Turns
On When The Applicable Two-Year Statute Of
Limitations Began To Run

Section 1983 does not contain a statute of limitations;
rather, it borrows the appropriate limitations period

45a
Appendix B
applicable under the law of the state in which the alleged
constitutional injury took place. See, e.g., Bonneau v.
Centennial Sch. Dist. No. 28J, 666 F.3d 577, 580 (9th Cir.
2012) (“[I]n this § 1983 suit, the district court appropriately
borrowed Oregon’s residual two-year statute of limitations
for personal injury actions.”). Where there is more than
one possible statute of limitations under state law, federal
courts apply the limitations period applicable to personal
injury actions in the forum state. Owens v. Okure, 488 U.S.
235, 240-41, 109 S. Ct. 573, 102 L. Ed. 2d 594 (1989) (citing
Wilson v. Garcia, 471 U.S. 261, 272, 279, 105 S. Ct. 1938,
85 L. Ed. 2d 254 (1985) (“The characterization of all § 1983
actions as involving claims for personal injuries minimizes
the risk that the choice of a state statute of limitations
would not fairly serve the federal interests vindicated by
§ 1983.”)). 5 In Hawai‘i, the statute of limitations for
personal injury actions is two years (see HRS § 657-7), and
the parties do not dispute that this two-year limit applies
in the instant case. See, e.g., Suppl. Mem. in Supp. of Pl.’s
§ 1983 Claim (Count II), at 4, ECF No. 61 (“The applicable
Hawai‘i statute is [HRS] § 657-7, setting the limitations
period at two years from the date of the violation.”); Defs.’
Resp. to Pl.’s § 1983 Claim (Count II) re: MSJ 2-4, ECF
No. 62.

5. Cf., e.g., Trefry v. Phillips, 821 F. Supp. 2d 393, 395 (D.
Me. 2011) (determining that appropriate limitations period for
plaintiff-mother’s § 1983 claim was the state’s 3-year statute of
limitations for personal injury actions and not the state’s 6-year
contractual limitations period, which plaintiff-mother argued
for based on claims of bad faith and breach of a purported foster
care-related contract she entered into with the state).

46a
Appendix B
“Although state law determines the length of the
limitations period, ‘the determination of the point at which
the limitations period begins to run is governed solely by
federal law.’” McCoy v. San Francisco, 14 F.3d 28, 29 (9th
Cir. 1994) (quoting Hoesterey v. City of Cathedral City, 945
F.2d 317, 318-19 (9th Cir. 1991), cert. denied, 504 U.S. 910,
112 S. Ct. 1939, 118 L. Ed. 2d 545 (1992)). Under federal
law, the statute of limitations begins to run on a Section
1983 claim “when plaintiff knows or has reason to know of
[the] injury which is the basis of [her] action.” Stanley v.
Trustees of Cal. State. Univ., 433 F.3d 1129, 1136 (9th Cir.
2006) (quoting Hoesterey, 945 F.2d at 319); see also Wilson
v. City of Fountain Valley, 372 F. Supp. 2d 1178 (C.D. Cal.
2004). Thus, to survive the threshold timeliness inquiry
under the applicable two-year statute of limitations, the
Court must find that Count II accrued—i.e., that Bird
either knew of her alleged constitutional injury, or that she
had sufficient facts such that a reasonable inquiry would
have revealed the basis of her Section 1983 action—not
more than two years prior to the Complaint’s July 20, 2015
filing date in state court.
B. Bird’s Section 1983 Claim Accrued By 2012,
More Than Two Years Prior To The July 20,
2015 Filing Of The Complaint
The State placed Bird on the child abuse and neglect
Registry, in alleged violation of her due process rights,
in 2007—shortly after the death of C.F. According to
the State, that placement is what caused Bird’s Section
1983 claim to accrue, which would render her July 2015
complaint untimely by many years.

47a
Appendix B
Bird’s exhibits paint a different, albeit ultimately
immaterial, picture. Her exhibits suggest that she first
learned of her placement on the Registry—and therefore
first became injured by that conduct, see Stanley, 433
F.3d at 1136 (citation omitted)—at some point in 2012. On
June 8, 2012, DHS sent a letter to a social worker from
Bird’s prospective adoption agency in Tennessee. June 8,
2012 Letter, Separate & Concise Statement of Facts in
Supp. of Pl.’s Opp’n to MSJ (“Concise Facts in Opp’n”),
Ex. H, at Bird000001, ECF No. 43-12. According to Bird,
“It was during the adoption process that [she and her
current husband] were informed of [her] placement on
the Registry.” Bird Decl. ¶ 49. Bird claims that she was
“caught completely unaware by this revelation because
[she] did not know that this list existed, let alone that [she]
was on it.” Bird Decl. ¶ 42. Although she does not pinpoint
a specific date, Bird must have learned of the June 8, 2012
letter’s contents within days because by June 26, 2012,6
Bird initiated a back-and-forth dialogue with DHS. In that
dialogue, which ran its course in 2012, Bird asked for the
evidence of abuse or neglect that DHS relied on for its
Registry placement, along with evidence demonstrating
that DHS had previously notified her of its placement
decision.7 Bird wrote, “I believe I was erroneously added
6. Bird’s attorney acknowledged that Bird had formal notice
of her inclusion on the Registry no later than September 12,
2012. See May 14, 2013 Letter, Concise Facts in Opp’n, Ex. J, at
Bird000092, ECF No. 43-14.
7. See, e.g., June 26, 2012 E-mail, Concise Facts in Opp’n,
Ex. I, at Bird000002, ECF No. 43-13 (“I have gone over all of the
paperwork I have on the case, including court records and reports
from DHS, and nowhere in it [is there] anything that indicates that

48a
Appendix B
to the Central Child Abuse Registry and I am trying
to resolve the issue through the Department prior to
further exploring legal options.” July 16, 2012 Email,
Concise Facts in Opp’n, Ex. I, at Bird 000009. Rather
than dissuade her from that avenue, Defendant Woodland
“strongly encourage[d] [Bird] to contact the attorney [she]
retained [back in 2007] to discuss . . . [her] concerns with
[being] listed on the child abuse database.” Aug. 22, 2012
Letter, Concise Facts in Opp’n, Ex. H, at Bird000012.
Together, these documents demonstrate that by 2012, Bird
knew the State had placed her on the Registry, felt this
placement was unjustified, was contemplating her legal
options to address that perceived injustice, and was even
encouraged to do so by DHS. In other words, even if the
Court were to ignore the State’s position, Bird’s Section
1983 claim accrued no later than August 2012, so her July
2015 complaint would still be untimely.
Bird’s untimeliness becomes even clearer upon review
of the early 2013 correspondence with the DHS authored
by her attorney. On January 23, 2013, Bird’s counsel wrote
I ‘threatened abuse or neglect.’”); July 1, 2012 E-mail, Concise
Facts in Opp’n, Ex. I, at Bird000007 (“I do not seem to have copies
of anything that mentions I will be placed on a central registry
of any sort, nor do I have copies of anything that says that I was
deemed to be a perpetrator of any sort.”); Aug. 4, 2012 E-mail,
Concise Facts in Opp’n, Ex. I, at Bird000010 (“I would like a copy
of the paperwork that shows that I was notified that I was going
to be placed on the Central Child Abuse Registry in the state of
Hawaii. . . . I would like a copy of the particular document that
shows that I was deemed a perpetrator of threatened harm. . .
[, and] the particular document that names me as a perpetrator of
threatened neglect, since I also do not see this in my records.”).

49a
Appendix B
to DHS and foreshadowed the instant lawsuit: “Enclosed
please find the Humphries v. L.A. County, 554 F.3d 1170
case . . . [, which] compels you to remove Ms. Bird’s name
from the child abuse registry.” See Jan. 23, 2013 Letter,
Concise Facts in Opp’n, Ex. J, at Bird000035. On March
21, 2013, Bird’s attorney wrote again to DHS and did not
mince words: “Ms. Bird is prepared to press her case
in a court of law . . . unless you remove her from the list
forthwith.” Mar. 21, 2013 Facsimile, Concise Facts in
Opp’n, Ex. J, at Bird000082. And on May 14, 2013, Bird’s
attorney hand-delivered a letter to State Deputy Attorney
General Candace Park stating, in relevant part:
Based upon the inconsistent information that we
have been receiving about the hearing process
and the length of time it has been since my client
was initially placed on the child abuse index, it
is my client’s request to bring this matter before
the Federal District Court in Hawaii.
....
Before filing the Federal lawsuit, I will give
you until May 31, 2013 to provide our office
with law to support your position. If I do not
hear from you by May 31, 2013, we will presume
that our legal position is correct. We stand on
the Humphries case. We will proceed with
litigation in Federal District Court.
May 14, 2013 Letter, Concise Facts in Opp’n, Ex. J, at
Bird000093-94.

50a
Appendix B
The above-mentioned correspondence between Bird,
Bird’s attorney, and various DHS and CWS officials—
including the September 12, 2012 notice, which Bird’s
attorney referenced in the May 14, 2013 hand-delivered
letter; the January 23, 2013 e-mail; and the March 21, 2013
facsimile—occurred more than two years before Bird filed
her Complaint in the Circuit Court of the First Circuit,
State of Hawai‘i on July 20, 2015. That is, as a matter of
law, Bird had the requisite knowledge to support Count
II—at the very latest—by May 2013, more than two years
before Bird filed her July 20, 2015 Complaint. Cf., e.g.,
Stanley, 433 F.3d at 1136 (“It is unnecessary to determine
exactly when [plaintiff] had notice, because she certainly
had reason to know of the injury upon which her action
was based when she filed a complaint alleging virtually
identical claims with the State Board of Control on April
27, 2001.”). As such, Bird’s Section 1983 claim against
Defendants is time-barred.
C. 	The “Continuing-Violation” Doctrine Cannot
Save Bird’s Section 1983 Claim
Bird argues that her claim is nonetheless viable
because of the continuing violation doctrine. That is, in her
supplemental briefing, Bird argues that Hawaii’s two-year
statute of limitations does not bar Count II because the
actionable injury was continuing in nature:
[Bird]’s experiences are important because
they provide context to how [HRS] § 350-2
deprives individuals of due process and then
subsequently deprives them of protected

51a
Appendix B
liberty interests. Potential class members have
suffered similar deprivations. However, [Bird]’s
experiences are not dispositive to the timeliness
of her claim. What is dispositive is that the State
has not yet ceased violating [Bird’s] and the
potential class member’s constitutional rights.
Federal law provides that when a plaintiff
challenges an ongoing constitutional violation,
the limitations period does not begin to run
until the violation ends. See Virginia Hosp.
Ass[‘n] v. Balies, 868 F.2d 653, 663 (4th Cir.
1989)[, aff’d sub nom. Wilder v. Virginia
Hosp. Ass’n, 496 U.S. 498, 110 S. Ct. 2510, 110
L. Ed. 2d 455 (1990)]. Here, [Bird] seeks to
invalidate [HRS] § 350-2 because it has and
continues to provide the mechanism by which
the State violates her and other individuals’
constitutionally guaranteed rights. Because
the constitutional violations are ongoing, the
limitations period has not yet begun to run.
Pl.’s Suppl. Mem. 2, ECF No. 61. Bird claims to be
“challenging a systematic issue” because, under her
theory, “the State’s continual application of [HRS]
§ 350-2 deprives [Bird] and the potential class of their
constitutional rights every day the statute is effective.”
Pl.’s Suppl. Mem. 11. The Court disagrees.
A s Defendants cor rectly ref lect, the alleged
constitutional violation at issue in this case derives from
“an actual, specific, concrete” event: “Plaintiff Bird is

52a
Appendix B
challenging her placement on the Registry[; h]er claim
accrued when she knew or should have known that she
was placed on the Registry.” Defs.’ Response to Pl.’s
Suppl. Mem. 9-10, ECF No. 62. That is, the violation Bird
alleges is the placement of her name on the Registry
without constitutionally required due process, and not
the placement of her name on the Registry as part of a
greater culture of constitutionally deficient harassment.
Compare, e.g., Moody v. Oklahoma Dep’t of Corrections,
879 F. Supp. 2d 1275, 1284 (N.D. Okla. 2012) (finding
§ 1983 hostile-work-environment claim based on sexual
harassment to be timely because the alleged actions were
“part of a greater culture of sexual harassment” occurring
both pre-and-post limitations period that involved
frequent incidents “that went virtually unchecked by the
facility’s chain of command”); with Tearpock-Martini v.
Borough of Shickshinny, 756 F.3d 232, 239 (3d Cir. 2014)
(declining to apply continuing-violation doctrine to § 1983
claim challenging the placement of a religious-themed
sign on municipal property in alleged establishmentclause violation because last affirmative action taken by
municipality was the physical installation itself, which
occurred outside the limitations period). Indeed, other
than the State’s 2007 Registry placement decision, there
is no other allegedly unconstitutional act alleged by Bird,
much less one that occurred in the two-year period prior
to the filing of her Complaint that would be necessary
to bringing her claim within the continuing violation
doctrine. Tearpock-Martini, 756 F.3d at 237 (“[W]hen
a defendant’s conduct is part of a continuing practice,
an action is timely so long as the last act evidencing the
continuing practice falls within the limitations period;

53a
Appendix B
in such an instance, the court will grant relief for the
earlier related acts that would otherwise be time barred.”)
(quoting Brenner v. United Bhd. of Carpenters & Joiners,
927 F.2d 1283, 1295 (3d Cir. 1991)).
What Bird appears to complain of is that the injuries
she has suffered from the State’s 2007 actions continue
to the present. Because the “continuing impact from past
violations is not actionable,” Williams v. Owens-Illinois,
Inc., 665 F.2d 918, 924 (9th Cir. 1982); because the case
does not involve a “continuing pattern of discriminatory
action,” Gutowsky v. Cty. of Placer, 108 F.3d 256, 260 (9th
Cir.), cert. denied, 522 U.S. 914, 118 S. Ct. 298, 139 L. Ed.
2d 229 (1997); and because all affirmative actions by the
State occurred well prior to July 20, 2013, by which time
Bird possessed the requisite information to bring the
instant action, Diaz v. Roman, 799 F. Supp. 2d 134, 139
(D. Puerto Rico 2011); the continuing violation doctrine
does not save Bird’s Section 1983 claim here.
D. 	That Bird’s Lawsuit Labels Itself A “Class
Action” Has No Bearing On The Court’s
Conclusion
In her supplemental briefing on the statute of
limitations, Bird argues that some members of the
putative “class” have claims that accrued within two years
of July 20, 2015, when the Complaint was filed (ECF No.
1-1), thereby preserving Bird’s claims. The Court does not
see how or why that would be.

54a
Appendix B
As an initial matter, there has been no class
certification granted, or even sought, in this action;
the parties have identified no potential class member
plaintiffs; and counsel for Bird does not claim to represent
any additional plaintiffs. Instead, the only information
Bird offers in support of her contention appears to be a
sworn statement by Jeffry R. Buchli, a Hawaii attorney
who “bid and won the master contract to furnish attorneys
to provide legal services to indigent parents who had
been accused of neglect and/or abuse by Child Protective
Services in the Family Court of the First Circuit Court,
State of Hawaii.” Buchli Decl. ¶ 6, ECF No. 43-3. Although
Buchli declares that he has represented parents as their
attorney in approximately 421 Chapter 587 proceedings,
served as guardian ad litem (“GAL”) in approximately 257
Chapter 587 proceedings, and appealed 27 such cases to
the Hawaii appellate courts, Buchli Decl. ¶ 8, no individual
clients, cases, or their associated details are identified.
Rather, the declaration states, in relevant part:
10. I do not recall any discussion regarding the
issue of the child abuse registry being brought
up by the DHS Social Workers with accused
parents, [GAL]s, attorneys, or judges at any
time.
11. I do not recall any court proceedings where
the DHS social worker informed the family
court judge of a parent’s name being placed on
the child abuse registry.
12. The issue of the child abuse registry was
never brought up.

55a
Appendix B
13. The issues that were brought up dealt mostly
with the facts and circumstances of the alleged
allegation of neglect and/or abuse.
Buchli Decl. ¶¶ 10-13.
Bird, in other words, offers no factual or legal
authority to support her contention that the claims of
such unidentified, hypothetical class members who no
attorney has claimed to be representing should apply
in this instance to preserve Bird’s Section 1983 claim.
See Pl.’s Suppl. Mem. 2. Bird’s contention thus merits no
further discussion.
II. 	The Court Declines To Exercise Supplemental
Jurisdiction Over The Remaining State Law Claim
Without a Section 1983 claim to anchor this Court’s
jurisdiction, and because no other basis for original
jurisdiction exists, the Court turns to whether to exercise
supplemental jurisdiction over Bird’s remaining state
law claim. See 28 U.S.C. § 1367(c)(3). Where, as here, all
federal claims are dismissed before trial, the exercise of
jurisdiction over any remaining state claim is a matter
of the Court’s discretion. United Mine Workers of Am. v.
Gibbs, 383 U.S. 715, 726, 86 S. Ct. 1130, 16 L. Ed. 2d 218
(1966) (“It has consistently been recognized that pendent
jurisdiction is a doctrine of discretion, not of plaintiff’s
right[; i]ts justification lies in considerations of judicial
economy, convenience and fairness to litigants; if these
are not present a federal court should hesitate to exercise
jurisdiction over state claims, even though bound to apply
state law to them.”) (citing Erie R. Co. v. Tompkins, 304
U.S. 64, 58 S. Ct. 817, 82 L. Ed. 1188 (1938)).

56a
Appendix B
Although neither retention nor remand is mandatory,
“in the usual case in which all federal-law claims are
eliminated before trial, the balance of factors to be
considered under the pendent jurisdiction doctrine—
judicial economy, convenience, fairness, and comity—will
point toward declining to exercise jurisdiction over the
remaining state-law claims.” Carnegie-Mellon Univ. v.
Cohill, 484 U.S. 343, 350 n.7, 108 S. Ct. 614, 98 L. Ed. 2d
720 (1988), superseded on other grounds by statute as
recognized in Fent v. Okla. Water Res. Bd., 235 F.3d 553,
557 (10th Cir. 2000).
T hat i s prec i sely t he c a se here. Under t he
circumstances, neither fairness, nor judicial economy
nor convenience to the parties counsel in favor of retaining
jurisdiction. This case was originally filed by Bird in state
court and is still in its infancy. Bird’s remaining claim
concerns alleged state law violations and “decisions of
state law should be avoided both as a matter of comity
and to promote justice between the parties by procuring
for them a sure-footed reading of applicable law.” United
Mine Workers, 383 U.S. at 726.
Having carefully considered the relevant factors, the
Court declines to exercise supplemental jurisdiction over
the remaining state law cause of action and remands the
case to state court. See Carlsbad Tech., Inc. v. HIF Bio,
Inc., 556 U.S. 635, 637, 129 S. Ct. 1862, 173 L. Ed. 2d 843
(2009) (holding that a district court may properly remand
a removed case to state court after declining to exercise
supplemental jurisdiction over the state law claims);
United Mine Workers, 383 U.S. at 726 (“Certainly, if the

57a
Appendix B
federal claims are dismissed before trial, even though not
insubstantial in a jurisdictional sense, the state claims
should be dismissed as well.”) (citing Wham-O-Mfg. Co.
v. Paradise Mfg. Co., 327 F.2d 748, 752-54 (9th Cir. 1964)).
III. 	The Motion To Strike Is Denied As Moot
In light of the above analysis and conclusions, the
Court hereby GRANTS the MSJ (ECF No. 24) with
regard to Bird’s Section 1983 claim, declines to exercise
supplemental jurisdiction over Bird’s remaining state law
cause of action, and REMANDS the remainder of this
action to state court. Bird’s Motion to Strike (ECF No.
39) thirteen of Defendants’ exhibits in support of their
MSJ, none of which is material to the Court’s conclusions
above, is DENIED AS MOOT.
CONCLUSION
Defendants’ Motion is GRANTED with respect to
Count II. The Court REMANDS the remaining state-law
claim to the Circuit Court of the First Circuit, State of
Hawaii. The Clerk of Court is directed to send a certified
copy of this order to the Circuit Court of the First Circuit,
State of Hawaii.
IT IS SO ORDERED.
DATED: April 24, 2017 at Honolulu, Hawai‘i.
/s/ Derrick K. Watson
Derrick K. Watson
United States District Judge

58a
Appendix
C
APPENDIX C — HAW.
ADMIN.
R. SECTIONS
§17-1610-2 Definitions. As used in this chapter:
“Abandoned infant” means abandoned infant as
defined in section 587A-4, HRS.
“Abuse and neglect” means harm or threatened
harm as defined in section 587A-4, HRS, of a child under
eighteen years of age by a parent, legal custodian, or
person responsible for that child’s welfare.
“Adoption service” means a social service provided by
the department or a licensed child-placing organization for
children whose parents have been found to be unwilling
or unable to provide them with a safe and nurturing
permanent home and who need and can benefit from
permanent family ties established through legal adoption.
“Adoptive home” means a home which has been
studied and approved by the department or a licensed
child-placing organization for the placement of a child for
the purpose of adoption.
“Adoptive placement” means the placement of a child
who is legally free for adoption into an approved adoptive
home.
“Aggravated circumstances” means aggravated
circumstances as defined in section 587A-4, HRS.
“Assessment” or “investigation” is the professional,
systematic, gathering and evaluation of information about

59a
Appendix C
the family for the purpose of making decisions regarding
confirmation of child abuse and/or neglect, protection of
the child, and services to the family.
“Authorized agency” means the department or other
public or private agency, person, organization, corporation,
or benevolent society or association that is licensed or
approved by the department or the court to receive
children for control, care, maintenance or placement.
“Bad faith” means that the statements or material
contained in the child abuse and/or neglect report were
found by the department to be designed to mislead or
deceive and not the result of an honest mistake.
“Caregiver” means any adult, other than the legal
custodian, authorized to provide care or oversee the care
of children.
“Case plan” means for families and children subject
to chapter 587A, HRS, the safe family home report and
the service plan and agreement, or the safe family home
report and the permanent plan, or the permanent plan.
The case plan must meet the requirements in § 17-1610-26.
“Casework services” means services provided or
purchased by the department to ensure that steps
necessary to protect a child are taken in a timely manner
and that needed supportive and rehabilitative services are
sought and arranged for the family.
“Child” means a person who is born alive and is less
than eighteen years of age.

60a
Appendix C
“Child-caring institution” or “group home” means
any private, institution or group home licensed by the
department for the purpose of receiving six or more
minor children for care and maintenance, apart from the
legal custodian, on a twenty-four hour basis for monetary
payment. The term shall not apply to any boarding school
which is primarily engaged in educational work or to
any treatment facility, forestry camp, training school, or
facility operated primarily for the detention of delinquent
children. The term shall also exclude public child care
institutions that accommodate more than 25 children.
“Child-placing organization” means any person,
agency, or organization, except family courts and the
department, engaged in the assessment, placement, and
supervision of children in foster care and which has been
delegated the authority by the department to approve
resource family homes and adoptive homes.
“Child protective services” means the specialized,
time limited child welfare service provided to the children
who are reported to have been harmed or threatened with
harm, and to their families to ensure the children’s safety,
permanency, and well-being.
“Child welfare services” means services by the child
welfare services branch necessary for the protection,
care, and permanency of abused and neglected children.
This includes intake, assessment, counseling, case
management, permanency services, licensing, service
payments, and support activities provided by department
staff or through services purchased by the department.

61a
Appendix C
“Close proximity to the family home” means a
placement which can be accessed within one hour or less,
either by private or public transportation, by the child’s
parent(s) or legal guardian(s).
“Concurrent planning” means an ongoing assessment,
planning, and service process with concurrent service
planning, treatment, and permanency goals depending
upon the family situation to ensure the safety, permanency,
and well-being of the child.
“Concur rent planning placement” means the
placement of a child into a prospective permanent home,
when the child’s legal custodian’s rights have not been
relinquished or divested by order of the court.
“Confirmed” means that an investigation conducted
by the department revealed reasonable cause to believe
that harm or threatened harm occurred.
“Constructive removal” means a non-physical removal
of custody from a legal parent or legal custodian with whom
the child resided within six months of the constructive
removal and the child continues to reside with the interim
caregiver. A child is considered constructively removed
on the date of the first judicial order removing custody,
even temporarily, from the appropriate specified relative
or the date that the voluntary placement agreement is
signed by all relevant parties.
“Court” means one of the family courts established
pursuant to the family court act.

62a
Appendix C
“Criminal history record check” means an examination
of an individual’s criminal history record through
fingerprint analysis and name inquiry into state and
national criminal history record files including, but not
limited to, the files of the Hawaii criminal justice data
center provided that the information obtained shall be
used exclusively for purposes under this chapter and
shall be subject to applicable federal and state laws and
regulations.
“Department” means the department of human
services.
“Expunge” means to destroy or delete all information
relating to a specific report of child abuse and/or neglect.
“Family home” means the home of the child’s legal
custodian where there is the provision of care for the
child’s physical and psychological health and welfare.
“Family preservation services” means those services
provided by the department which are intended to
maintain a child in the family home and prevent out-ofhome placement.
“Foster care” or “out-of-home care” means placement
which is apart from the child’s legal custodian which
provides twenty-four hour parenting care, including, but
not limited to, placement in a licensed relative’s home, a
resource family home, or a child-caring institution.
“Foster child” means any child under eighteen years of
age in out-of-home care under the placement responsibility

63a
Appendix C
of the department; or, for State-funded foster care, upon
attaining age eighteen years while residing in a resource
family home with a goal towards independent living, is able
and willing to complete high school education or equivalent
within six months or within the following school year; or,
for State-funded foster care, is living in a resource family
home and receiving special educational services as defined
by the department of education and remains, in high school
until the end of the school year in which the foster child
attains age twenty.
“Frivolous” means that the statements or information
contained in the child abuse and/or neglect report have
been found by the department to have little weight or
importance after attempts to substantiate the information
have been made, or are substantially inaccurate,
incomplete or misleading relating to any or all material
fact(s) of the allegations.
“Hanai relative” means an adult other than a blood
relative who performs or has performed a substantial
role in the upbringing or material support of a child, as
attested to by the written or oral designation of the child
or of another person, including other relatives of the child
as deemed credible by the court or the department.
“Harm” means harm as defined in section 587A-4,
HRS.
“Imminent harm” means imminent harm as defined
in section 587A-4, HRS.

64a
Appendix C
“Independent living services” means programs and
activities that assist an eligible child to prepare for the
transition from out-of-home care to independent living.
“Initial date of entry into out-of-home care” means the
initial date on which the department assumed placement
responsibility of a child:
(1) By receipt of custody of the child from the police;
(2) Pursuant to a voluntary agreement with the legal
custodian;
(3) By order of the court; or
(4) By placing a child in foster care and thereby
assuming temporary foster custody of a child
subject to court ordered family supervision,
pursuant to section 587A-4, HRS.
“Intake report” means the initial oral statement and,
if required by section 350-1.1(c), HRS, the subsequent
written account concerning the facts and circumstances
which caused the reporter to believe that child abuse and/
or neglect has occurred, or that there is a substantial
risk that child abuse and/or neglect may occur in the
reasonably foreseeable future.
“Least restrictive environment” means an available
placement that is the most family-like setting that can
best meet the needs of the child.

65a
Appendix C
“Legal custodian” means the child’s parent(s),
permanent custodian(s), legal guardian(s), or other entities
who have legal and physical custody of the child.
“Legal guardian” means any adult who has legal
guardianship of a child as the result of a judicial
determination under chapter 560, HRS, made at the time
the department had placement responsibility of the child.
“Legal guardianship” means a judicially created
relationship between child and caretaker which is intended
to be permanent and self-sustaining as evidenced by the
transfer to the caretaker of the following parental rights
with respect to the child: protection, education, care and
control of the person, custody of the person, and decisionmaking. The term “legal guardian” means the caretaker
in such a relationship.
“Medical neglect” means serious deterioration of a child
due to the failure of the legal custodian(s) or caregiver(s)
to provide or seek appropriate medical treatment or the
legal custodian(s) or caregiver(s) repeatedly ignoring
medical recommendations for treatment.
“Multidisciplinary team” means those persons who
provide consultation through a formal arrangement
with the department to assist social workers with
multidisciplinary diagnosis, assessment, or treatment
planning for families.
“Negligent treatment” means the failure of the
legal custodian or caregiver(s) to provide adequate food,

66a
Appendix C
clothing, shelter, medical care, supervision, or guidance
to a child.
“Not conf irmed” means that an investigation
conducted by the department revealed that there was
insufficient evidence to confirm that harm or threatened
harm had occurred.
“Ohana conference” means a family focused strengthbased meeting facilitated by trained community
facilitators designed to build and strengthen the network
of protection of the extended family members and the
community for the child.
“On-Call resource family home” means a licensed
resource family home or child-caring institution where
temporary care, apart from parents or legal custodians,
is provided to abused and/or neglected, or other dependent
children in need of care and protection on a twenty-four
hour basis, until more suitable plans are made for the
children.
“Periodic review” means a judicial review of the status
of each child in out-of-home care under the placement
responsibility of the department, which is held within six
months of the initial date of entry into out-of-home care,
and at least every six months thereafter.
“Permanency hearing” means the hearing required
by federal statute to determine the permanency plan
for a child in out-of-home care under the placement
responsibility of the department that may occur at a

67a
Appendix C
dispositional or review hearing pursuant to relevant
sections of HRS chapter 587A that is held within twelve
months of the initial date of entry into out-of-home care
and at least every twelve months thereafter, until the child
is placed into a permanent home. For children for whom
the court determines that reasonable efforts to return
the child home are not required because of aggravated
circumstances or in the case of an abandoned infant, the
initial permanency hearing is held within 30 days of the
judicial determination.
“Permanent custodian” means any adult who has
permanent custody of a child pursuant to a judicial
determination under chapter 587A, HRS, made at the time
the department had placement responsibility of the child.
“Permanent custody” means the legal status as defined
in section 587A-4, HRS. The awarding of permanent
custody divests from each legal custodian and vests in a
permanent custodian each of the parental and custodial
duties and rights of a legal custodian including, but not
limited to, the following: to determine where and with
whom the child shall live, to assure the child is provided
in a timely manner with adequate food, shelter, clothing,
psychological care, physical care, supervision, and other
necessities, to monitor the provision of appropriate
education, to provide all consents that are required for
the child’s physical or psychological welfare, to provide
consent to adoption change of name or marriage.
“Permanent plan” means a specific written plan
prepared pursuant to HRS section 587A-4.

68a
Appendix C
“Perpetrator” or “maltreater” means the person the
reporter of child abuse and/or neglect or the department
has identified as the person who by acts or omissions has
harmed or threatened a child or children with harm.
“Person responsible for a child’s care or welfare”
means the child’s parent, guardian, legal and physical
custodian, resource parent, an employee of a public or
private residential home or facility, other person legally
responsible under State law for the child’s welfare in a
residential setting, or any staff person providing out-ofhome care or day care.
“Placement responsibility” means the authority of the
department or other agency or individual to determine
the placement and care of the child.
“Prospective adoptive parent(s)” means a person(s)
who has been studied and approved by the department
or a licensed child-placing organization and identified by
the department or licensed child-placing organization as
the most likely adoptive placement for the child.
“Psychological abuse and neglect” means child rearing
practices or an absence of them by the family, or person
responsible for a child’s welfare, which has resulted in,
or is likely to result in, a substantial impairment of a
child’s opportunity for normal and healthy psychological
development.
“Purchase of service(s) provider” or “POS provider”
means an agency or organization providing child welfare

69a
Appendix C
services on behalf of the department under the terms of
a valid written contract with the department.
“Reasonable efforts” means appropriate and available
services offered or provided to prevent the placement of
a child into out-of-home care, to reunify a family, or to
finalize the permanency plan for the child.
“Recipient” means a person who has received a service
or payment from the department.
“Records” means all written, oral, or electronic
information gathered and maintained by the department
in its state central registry or in physical records,
including but not limited to:
(1) Reports of child abuse and/or neglect accepted
by the department for further action;
(2) Subsequent actions by the department, including
but not limited to medical, psychological,
psychiatric, or other agency reports as well as
departmental contacts, assessments, or reports;
and
(3) A ny record or infor mation collected and
maintained by the department that identifies or
contains information regarding a person who is
an:
(A) Applicant;

70a
Appendix C
(B) Recipient of services from the department;
or
(C) Resource caregiver, adoptive parent, legal
guardian, or permanent custodian.
“Relative” means a person related by blood or
adoption, or a hanai relative, as defined in this chapter, who
is willing and able to safely provide support to the child
and family, as determined by the court or the department.
“Resource family home” means a home in which fewer
than six minor children, or six or more minor siblings, are
received for care and maintenance apart from their legal
custodian on a twenty-four hour basis for fee or charge
and which has met the state certification requirements.
“Resource family” or “resource caregiver” means a
family or person who is:
(1) Licensed by the department to provide temporary
safe foster care services for children under the
jurisdiction of the department in out-of-home
care; and
(2) Paid foster care maintenance payments by the
department for such services.
“Risk assessment” means the collecting and
interpreting of information about a child and family, that
is utilized during the duration of a family’s involvement
with the department by the child welfare services social

71a
Appendix C
worker in a continual process of evaluating whether there
is reasonable, foreseeable risk of harm to the child.
“Severe harm” means substantial physical injury,
neglect, or injury to the psychological capacity of a
child characterized by an observable and substantial
impairment in the child’s ability to function, including
those acts or omissions included in chapters 350 and 587A,
HRS, as determined by the department’s risk assessment
used to determine the level of harm or risk to a child.
“Sexual abuse” means any sexual act performed on a
child or sexual exploitation of a child, by a family member
who resides with the child or is otherwise responsible for
the child’s care or welfare. It includes, but is not limited to,
rape, sodomy, genital fondling, incest, sexual molestation,
and allowing, permitting, or encouraging a child to engage
in prostitution or participate in obscene or pornographic
photographing, filming, or depiction of those acts as
defined by state law.
“Specified relative” means father, mother, brother,
sister, half-brother, half-sister, uncle, aunt, uncle halfblood, aunt half-blood, great uncle, great aunt, great
uncle half-blood, great aunt half-blood, grandfather,
grandmother, great grandfather, great grandmother, first
cousin, first cousin once removed, nephew or niece, greatgreat grandmother, great-great grandfather, great-greatgreat grandmother, great-great-great grandfather, greatgreat aunt, great-great uncle, great-great aunt half-blood,
great-great uncle half-blood; stepfather, stepmother,
stepbrother, and stepsister; the adoptive parents of a

72a
Appendix C
legally adopted child as well as other natural or legally
adopted children and relatives of the adoptive parents; and
the legally married spouse of any of the persons specified
in this subsection even after the marriage has ended in
death or divorce.
“State central registry” means the information
regarding reports of child abuse and/or neglect and
subsequent actions by the department maintained in the
department’s information system.
“Termination of parental rights hearing” means a
hearing held pursuant to HRS section 587A-33.
“Threatened harm” means threatened harm as
defined in section 587A-4, HRS.
“Unsubstantiated” means that the statement or
information contained in the child abuse and/or neglect
report was found by the department to be frivolous or
made in bad faith.
“ Voluntary placement” means an out-of-home
placement of a minor, by or with participation of a State
agency, after the parents or guardians of the minor have
requested the assistance of the agency and signed a
voluntary placement agreement;
“ Voluntary foster custody ag reement” means
a written agreement, binding on the parties to the
agreement, between the department, any other agency
acting on its behalf, and the parents or guardians of a

73a
Appendix C
minor child which specifies, at a minimum, the legal status
of the child and the rights and obligations of the parents or
guardians, the child, and the agency while the child is in
placement. If parents or guardians request that the child
be returned to their home or to the home of a relative,
the voluntary custody agreement shall be deemed to be
revoked unless the department opposes such request and
obtains a judicial determination that the return of the
child to such home would be contrary to the child’s best
interests.

74a
Appendix C
§17-1610-19 Maintenance of records.
(a) Records of reports of child abuse and/or neglect
and subsequent action taken, by the department shall be
maintained by the department in accordance with section
350-2(d), HRS, to assist in risk and safety assessments of
a child who has been reported to be harmed or at risk of
harm, provided that:
(1) The record of a child abuse and/or neglect report
shall be expunged within ninety working days
following the date:
(A) The repor t is unsubstantiated by the
department; or
(B) The petition arising from the child abuse or
neglect report has been dismissed by order
of the family court.
(2) The record of a child abuse and/or neglect
report that was investigated and found to be not
confirmed shall be maintained by the department
for use in future risk and safety assessments and
for no other purpose;
(3) The record of a child abuse and/or neglect report
that was investigated and found to be confirmed
where the department finds after a review of the
circumstances and facts of the case that there
is evidence of substantial rehabilitation or an
erroneous confirmation may be expunged; and

75a
Appendix C
(4) The record of a child abuse or neglect report that
was investigated and found to be confirmed shall
be maintained by the department for future risk
and safety assessments.
(5) The department shall comply with requests from
other states to check its central registry for the
purpose of conducting background checks in
foster or adoptive placement cases.
(b) Other records maintained by the department shall
be confidential and maintained and disclosed in accordance
with chapter 17-1601 and departmental procedures.

